Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   SPIT TOBACCO AND YOUTH




                   OEI 06-92-00500
                   I
                   EXECUTIVE                      SUMMARY

PURPOSE

This study describes the present status of youth use of spit tobacco in six areas:
prevalence and patterns of use, health effects, environmental influences on use, product
promotion and sales, regulation and enforcement, and educational efforts.


BACKGROUND

This report, requested by the Surgeon General, is the second on spit tobacco (snuff and
chewing tobacco) by the Office of Inspector General. The fust, in 1986, concluded spit
tobacco use by young people was a national problem with serious potential health
consequences. The current inspection focused on data developed after 1985 for users
under age 19 and found spit tobacco use persists as a national health problem.
Information came from four major sources: literature review, national and regional data
on prevalence and use patterns, experts in spit tobacco issues, and young users.


FINDINGS

Under-Age Spit Tobacco Use Is High, Wide-Spread And Begun Early.

In 1990 and 1991, nearly one in five high school males used spit tobacco. However, high
spit tobacco use is not confiied to one region or group; northeastemers, urban dwellers,
and Native American children use spit tobacco. Age 11 or 12 is typical for starting use.


Ofien Atiicted   To Spii Tobacco, Under-Age Users Are Seriously Endkngeting Their
Heallh.

Spit tobacco contains cancer-causing and addictive substances. Short term spit tobacco
use often causes leukoplakia (white, wrinkled, skin patches inside the mouth) which can,
over time, become malignant in a significant percentage of cases. Long term use greatly
increases the risk for oral cancer which may become epidemic if young people continue
frequent use into their adult years. Use is intense among young people who frequently
admit they are addicted to nicotine.


Family, Friends And Other Incentives Strongly Contribute To Under-Age Use.

Perceived social support from fathers, other male relatives and friends is the most
influential reason youth fwst try spit tobacco. The baseball connection, product placement
in stores and “look-alike” items further enhance acceptability of use.


                                              i
Extensive And Success@ fiomotion       Of Spit Tobacco VictimiWs Susceptible Youth.

Moist snuff consumption has nearly tripled since 1972, making it a very profitable
business. The industry intensively promotes spit tobacco through sponsorship of sporting
events, entertainment and distribution of free samples. These activities, and the associated
images of athleticism and masculinity, have strong appeal for many males under age 18.


Spit Tobacco Laws And Their Enforcement Are Weak And Ineffective.

While many other countries prohibit spit tobacco, American regulatory policy is
inconsistent with other tobacco products. The Comprehensive Smokeless Tobacco Health
Education Act of 1986 has not been an effective deterrent to spit tobacco use by young
people. State and local tobacco control and access laws have loopholes and lack
enforcement.


Under-Age Spit Tobacco Use Is A Community Problem, Requiting Broad Interventions.

Spit tobacco use is often socially acceptable within a community, including schools.
Effective measures for change and better enforcement include heightened community
consciousness, tobacco-free schools, screening and counseling by health professionals,
disassociation of sport from spit tobacco use, and improved spit tobacco curricula.


CONCLUSIONS

The responsibility for addressing the problem of spit tobacco use by young people rests
with many groups at the national, State and local levels. We encourage responsible
groups to take action in four broad areas:

F Promote community awareness and action.

F Support improved State and local tobacco control.

F Seek the support and involvement of health care providers and organized athletics.

F	 Re-examine national tobacco control and access policy and coordinate a plan for
   deterring youth use of spit tobacco.




                                             ii
                        TABLE                OF CONTENTS

EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1


FINDINGS       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


        Prevalence AndPatternsOfUse             . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


        Health Effects . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


        EnvironmentalInfluences        On Use . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


        Product Promotion And Sales.             . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9


        Regulation And Enforcement            . . . . . . . . . . . . . . . . . . . . . . . . . . . ...11


        Education AndIntervention         Strategies     . . . . . . . . . . . . . . . . . . . . . . . . . 13


CONCLUSIONS            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...17


ENDNOTES         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...19


BIBLIOGRAPHY           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...21


APPENDICES         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .A-l


        A: Profdes 0f1992Spit           Tobacco Users        . . . . . . . . . . . . . . . . . . . . . . A-1


        B: Current Use Rates InTwentyStates                . . . . . . . . . . . . . . . . . . . . . . ..B-l


        C: Summary OfPrevalence             Studies . . . . . . . . . . . . . . . . . . . . . . . . ..C-l

        D: Key Informants Interviewed.             . . . . . . . . . . . . . . . . . . . . . . . . . ..D-l
                           INTRODUCTION

PURPOSE

This study describes the present status of youth use of spit tobacco in six areas:
prevalence and patterns of use, health effects, environmental influences on use, product
promotion and sales, regulation and enforcement, and educational efforts.


BACKGROUND

Spit tobacco includes two main types: snuff and chewing tobacco. Snuff “dippers” place
a small amount of shredded or fiiely ground tobacco (loose or encased in a paper pouch)
between their cheek and gum. Tobacco “chewers” place a wad of loose leaf tobacco or a
plug of compressed tobacco in their cheek. Both dippers and chewers suck on the tobacco
and spit out the tobacco juices and saliva generated. Previously termed “smokeless
tobacco”, snuff and chewing tobacco are now sometimes called “spit” or “spitting”
tobacco to more accurately describe how they are used and to counteract the
misconception that they are safe to use. This study, requested by the Surgeon General,
uses the newer nomenclature of spit tobacco.

Youth use of spit tobacco is a serious public health concern. In January 1986 the OIG
released a national study entitled, “Youth Use of Smokeless Tobacco: More Than a Pinch
of Trouble. ” This report concluded that increasing use of smokeless (spit) tobacco by
young people was a national problem with serious potential health consequences. Young
users were already experiencing health effects and were unaware of the risk for others.
Subsequently, offices within the Public Health Service (PHS), i.e., the Centers for Disease
Control (CDC), National Cancer Institute (NCI), National Institute of Dental Research
(NIDR), National Institute on Drug Abuse (NIDA), OffIce of the Surgeon General, and
the Indian Health Service, compiled a growing body of completed and developing
scientit3c research information that shows youth use of spit tobacco persists as a national
health problem. The American Dental Association and the American Academy of
Otolaryngology, among others, promote practices that actively seek to deter youth use.

In 1986, to deter spit tobacco use, Congress enacted the Comprehensive Smokeless
Tobacco Health Education Act (CSTHEA) of 1986 (P.L. 99-252). The Act required the
Secretary to inform the public of any health dangers of smokeless (spit) tobacco use.
Smokeless (spit) tobacco packaging and advertising had to include warning labels with the
exception of outdoor billboard advertising. Advertising on radio or television was banned.
The Act also encouraged States to establish 18 as the minimum age for the purchase of
smokeless (spit) tobacco, currently the standard in all but three States. In July 1992, the
Congress further strengthened national law when it passed the ADAMHA Reorganization
Act which required all States to ban the sale and distribution of tobacco products to
everyone under age 18 by October 1, 1994. It also requires States to enforce their laws



                                              1

“in a manner that can reasonably be expected to reduce the extent to which tobacco
products are available to under-age youths. ”


METHODOLOGY

This inspection focused on spit tobacco use by people under age 19 with an emphasis on
trends and data developed after 1985. Information came from four major sources:
research and professional literature, national and regional survey data on prevalence and
patterns of use, key informants considered experts in spit tobacco issues, and a purposive
sample of current and former young users.

We completed a content analysis of research and professional literature published after
1985 (see Bibliography). This literature analysis and synthesis covers the six areas
enumerated in the Purpose. The literature review serves as the basic study framework
supplemented by national survey data from the National Center for Health Statistics,
NIDA and CDC, and by State and regional survey data collected from a variety of sources
(see Appendices B and C). Numbers in parentheses appearing within the report text, e.g.
(4), reference the literature or survey data source. Superscript letters, e.g. (m) refer to
endnotes.

Using in-depth, structured interviews, we collected data from 34 key informants
knowledgeable in spit tobacco issues (see Appendix D). We selected these key informants
based on their participation in Departmental programs and/or research dealing with spit
tobacco issues, their prominence in professional or research literature, their professional
afftiations or recommendations by other key informants. Their areas of expertise are
preventive medicine, dental health and education, psychology, psychiatry, epidemiology,
clinical pharmacology, cancer research and tobacco use control policy. Seventy-five
percent have done original research on spit tobacco issues.

We also collected detailed data on use patterns and motivations from 54 spit tobacco
users. Using a structured questionnaire, we interviewed users either in person or by
telephone. In some cases, dental professionals, using our questionnaire, conducted the
interviews on-site in their clinics. The 54 users, selected judgmentally, met four criteria:
1) initiated use before age 18, 2) were age 21 or younger at the time of the interview, 3)
had used spit tobacco regularly for two years or more, and 4) had used spit tobacco nearly
every day in their last year of use. Beyond the stereotypical white male and athlete users,
we also included females and members of other ethnic groups such as Native Americans,
and Hispanics. The users come from 15 States, and from urban and rural areas.

The user data, coupled with more in-depth data from our 1986 report on spit tobacco,
supplements and complements descriptions of motivations and consequences of spit
tobacco use from our literature review. However, we could not make general statements
about all young spit tobacco users since the sample is limited. Quotes from these users
are scattered through the report text. Proffles of some of the young users are presented in
Appendix A,


                                              2
                                       FINDINGS


Under-Age       Spit Tobacco Use Is High, Wide-Spread   And Begun Early.

�    Currently, nearly 1 in 5 high school males uses spit tobacco; some St&e rates are
     constierably higher.

                                               A 1990 and 1991 school-based survey in 22
      percent use during preced~ 30 days       select States (Youth Risk Behavior Survey -
                 Grades 9 to 12                YRBS) shows that nearly 20 percent of
              Males             Females
                                               males in grades 9 to 12 were current users
    m      White Total        Wite Total
    1990 23.9% 19.1%          1.5%   1.4%      of spit tobacco (1-3).a Among white males,
    1991       23.6%    19.2%      1.4% 1.3%   an even higher 1 in 4 currently use spit
           Source: YRBS, 1990 (N = 11,631)     tobacco (see Table 1). Use among white
                   & 1991 (N = 12,272)         male 12th graders in 1990 was 26 percent.
                       Table 1                 Rates for Hispanic and Black teens are
                                               notably lower, as are female use rates.

In some States, current use by high school
males is much higher than the composite                     Current Use By Grade
YRBS rate. Overall male usage rates in             Grade          Alabama       Tennessee
                                                   9th            36.6%          35.2%
grades 9 to 12 are as high as 34 percent in                                      37.1%
                                                   Ml             26.7%
Tennessee and 33 percent in Montana (3).           1Ith           26.9%          30.7%
Other States with high overall prevalence          12th           31,1%          33.7%
among high school males are Colorado                     Source: YR13S1991(109, 1Ii)
(32%), Alabama (31 %) and Wyoming (31%)                            Table 2

 (2). Further, in States with hkh use rates,

more 9th or 10th grade males ~hari senior males may currently use spit tobacco (see Table

2). For additional States with high spit tobacco use rates, see Appendix B.


w	 Spit tobacco use by young males has increased greatly since 1970 and has stayed
   high.

Between 1970 and 1985 spit tobacco use by young males increased dramatically nation
wide. The 1970 National Health Interview Survey reported young males age 17 to 19
were the lowest snuff users while men age 50 and over were the highest (4). By 1985,
the Current Population Surve showed males age 16 to 19 had a snuff usage rate double
that of men age 50 and over. z ‘c

Other studies showed high spit tobacco use among young people. In 1989 the NCAA
replicated its 1985 national study of social drug use by college athletes (5). It found use
of spit tobacco by college athletes had risen from 20 percent in 1985 to 28 percent in
1989, a 40 percent increase. More importantly, the NCAA found the large majority of
college users began dipping or chewing before they went to college, i.e., either in junior
high (21 %) or senior high (54%) school. Furthermore, spit tobacco was the only social


                                               3
drug in the NCAA study with a higher reported prevalence in 1989 than in 1985.d From
1986 to 1989 the NIDA National High School Senior Survey indicated current monthly
use of spit tobacco among males ranged from 22 percent in 1986 to 16 percent in 1989
(6).’ Female use was relatively low, ranging from 1.6 percent in 1986 to 1.2 percent in
1989, and had stayed low over time (4,6).

b High spit tobacco use is Z@ conjined to one re~”on or population group.

Use bv Northeastern high school males is as high as 10 percent in States where it was
presumed to be uncommon. For example, Con&cticut’s 1989-90 Health Check reported
male spit tobacco use in the past 30 days was 7 percent for both 10th and 1lth graders
(7). Use among that State’s male seniors increased 25 percent from 8 percent in 1987 to
10 percent in 1990. According to the Tri-Agency Tobacco Free Project, 6.6 percent of
Maine’s 9th graders use spit tobacco (8). Maine also experienced a large increase of 23
percent in male use of spit tobacco for seniors since 1987, rising from 8.3 percent to 10.2
percent in 1991 (8-10). -

Urban rates of youth use, although lower than rural,
range as high as 16 percent. A 1987 Illinois study
showed 1 in 6 metropolitan male 1lth graders and 1
in 4 non-metropolitan males currently used spit
tobacco (see Table 3) (11). In Missouri, 13 percent
and 15 percent of urban 8th and 12th grade males
respectively used spit tobacco within the last 7 days
in 1988 (12). The comparable prevalence rates for
                                                                      Table 3
rural males were 17 percent for 8th grade and 31
percent for 12th grade (12).

Native Americans’ spit tobacco use rates are the highest for any age group for both males
and females. Their rates of use range from 29 percent in Washington to 46 percent in
parts of South Dakota and Montana (13). However, three counties in North Dakota,
which have predominantly Native American populations, reported even higher spit tobacco
use in a 1990 prevalence survey of their young people. Ninety-one percent of Sioux
County’s male 7th graders and 83.3 percent of 8th graders currently used spit tobacco.
Over 50 percent of McKenzie County’s male 9th, loth, and 1lth graders and Adams
County’s male 1lth and 12th graders currently use spit tobacco (14). Native Americans
are unique in that female use rates sometimes equal, or even exceed the high rates of
males (13).

k Youth use spii tobacco at extremely young ages.

Research on young users indicates the majority of youth start spit tobacco use before the
age of 12, (11,12,15-18) with young rural males starting more than a year earlier
(19c, 12). In 1986 we reported that average age of first use was 10 years. The average
age of initiation for our 1992 users was 9.5 years old, with 67 percent starting at 12 years



                                              4

old or younger. Twenty-eight percent (15 of 54) of them were five years old or younger
when they first tried spit tobacco.

In some regions, regular use also occurs at early ages. For example, 17 percent of West
Virginia’s 5th and 6th grade boys are regular spit tobacco users (19b). Other States are
experiencing a smaller, but significant, proportion of their young children using spit
tobacco regularly: 3.7 percent of Illinois’s 5th graders (11), 3 percent of Oklahoma’s (20)
and Missouri’s 6th graders (12), and one percent of Maine’s (8) and Connecticut’s 5th
graders (7). In 1986 we reported the average age for regular or daily use was 12.


Often Addicted To Spit Tobacco, Under-Age Users Seriously Endanger Their Health.

+ Spit tobacco contains cancer-causing and addictive substances.

Spit tobacco contains tobacco nitrosamines and other proven carcinogens, i.e. cancer-
causing substances (21). Spit tobacco nitrosamine levels are hundreds, or in some cases
thousands, of times greater than what foods and beverages may legally contain (4,22).
For example, spit tobacco has 100 times more nitrosamines than bacon (23). Moist snuff
has a much higher nitrosamine level than looseleaf chewing tobacco. While some
researchers have suggested setting maximum permissible levels of nitrosamines (21), NCI
has said nitrosarnines are not safe at any level in tobacco products (24). Pinkerton’s Red
Man moist snuff has the highest nitrosamine level of any snuff sold in the United States,
followed by U.S. Tobacco Company’s (UST) Copenhagen (21,25,26). Moist snuff also
contains polonium-21 O, uranium-235 and -238, nickel, cadmium and formaldehyde, also
considered carcinogens.

Another harmful ingredient of spit tobacco is nicotine, an addictive drug (27). Nicotine
enters the user’s bloodstream by being absorbed through the lining of the mouth. In
normal use, a snuff dipper places a pinch in his mouth and holds it there for 20 to 30
minutes. The amount of nicotine absorbed is 2 to 3 times the amount delivered by a
regular-size cigarette (25). Chewing tobacco has less available nicotine (per gram of
tobacco) compared to moist snuff, but chewers use more tobacco per dose. Thus, users
who consume 8 to 10 dips or chews a day receive a nicotine dose equal to that taken by a
heavy smoker who consumes 30 to 40 cigarettes daily (25). Nicotine is absorbed more
slowly from spit tobacco than from cigarette smoke. However, more nicotine per dose is
absorbed from spit tobacco and it stays in the bloodstream longer (28). UST’s
Copenhagen and Pinkerton’s Red Man moist snuff have the highest level of available
nicotine (21).

Using spit tobacco can lead to nicotine dependence or addiction (4,27). The U.S. Surgeon
General, the World Health Organization and the American Psychiatric Association have all
recognized chronic tobacco use as dxug addiction (27). Further, the Surgeon General has
compared nicotine to other addictive drugs such as cocaine or heroin. While nicotine is a
legal drug and the others are not, the processes that determine nicotine addiction are
similar to those that determine addiction to other drugs. f


                                              5
�	   In the shoti term, sp& tobacco use causes setious, but generally not ftial, health
     effects.

Leukoplakia (white, wrinkled, skin patches inside the mouth) and gum recession at the
usual site of tobacco placement are the most frequent consequences of short-term spit
tobacco use (4, 29-33). These conditions occur in 40 to 60 percent of spit tobacco users.
Leukoplakia are a serious concern because, over time, they become malignant in a
sign~lcant, though unspecified, percentage of cases. A conservative range is from 2 to 6
percent (33). However, leukoplakia appear to regress or resolve completely if the spit
tobacco user quits (33). Occurring where the user holds the spit tobacco in his mouth,
Ieukoplakia are significantly associated with duration, frequency, recency, type and brand
of spit tobacco used. Fifty-eight percent of key informants agree that the incidence of oral
health problems among young users are increasing, with 48 percent perceiving a moderate
rate of increase.

Other health effects of short-term spit tobacco use are mentioned, but are less certain in
research data. For pregnant women, fetal toxicity is implicated in spit tobacco use (35).
A concern is that the nicotine, sodium and carcinogenic substances absorbed from spit
tobacco may aggravate human illness in progress (36), or for young male athletes who use
any form of tobacco, accelemted coronary artery disease or high-blood pressure will result
(28). A limitation of data gathered to describe the short term to intermediate effects of
use is that the study populations have been young, physically fit users (36-38).

}    In the long term, the consequences of spit tobacco use can be deadly.

The scienttilc and research community is quite certain of the link between prolonged spit
tobacco use and oral cancer (4, 39-41). About 75 percent of oral and pharyngeal cancers
                                                 are attributed to use of smoked and spit
I ~!nn~
   ---
        ~at  mlm
        ~=- @-...
                  ram-war ad
                  .W..ML   -.u
                               Aiqj.
                               _“
                                      He  had    tobacco   (40). Those who use spit tobacco
                                                 are at risk for gum and cheek lesions that
  used about 40 years. lTPI’     ~ pati of his
                            ..wJ ~ut
  mouth out, but it got inlto his throat. ”      in particular can lead to cancer (40).
1                                                Oral cancer accounts for 2 to 4 percent of
                                                 all cancers diagnosed annually in the
United States, but only one-half of those with oral cancer are alive five years after
diagnosis (40). Further, most oral cancers are advanced at diagnosis, so those who
survive the oral cancer have an exceptionally high risk of developing subsequent cancers
(23).

Young spit tobacco users who continue their habit are at risk for oral cancer. If they
continue frequent spit tobacco use into their adult years, 94 percent of key informants
predict an increased incidence of mouth and throat cancers for them.g The majority
(64%) say “absolutely” this will happen, NCI has also expressed its serious concern
about “an impending oral cancer epidemic” in the young male group (23).

Besides oral cancer, other adverse health effects are associated with long-term spit tobacco
use. Oral effects suggested are dental decay, tooth abrasion, and tooth loss (32).h


                                              6


                                                                                               —
Suggested health problems under study are high cholesterol levels (37,42), accelerated
coronary heart disease (28,35), upper digestive tract cancers (35,41), high blood pressure
(28,35,43), and cancers of the throat, pancreas, prostate in males (44) and urinary tract
(35).

�   Nicotine addiction phzys a role in long-term health consequences.

Addiction to spit tobacco combined with the serious health effects of long-term tobacco
use assure that many young users face an unhealthy future. Researchers agree a
relationship between spit tobacco and cigarette use exists, although the dynamics and
sequence are not clear (45 ,46). One researcher explains it this way, “It appears that the
use of one nicotine product is associated with the initiation of another nicotine product.
The use of [spit tobacco] is far more likely to precede cigarette smoking than the other
way around. ” (46) The majority of key informants say many young people start their
tobacco use with spit tobacco. Additionally, they say many also smoke or will switch to
cigarettes in the future. The First International Conference on Smokeless Tobacco, in
recognizing the addictive nature of nicotine, concluded “ . . there is a clear potential for
[spit tobacco] to serve as a gateway substance for cigarette smoking and the use of other
addictive substances, [i.e. alcohol, illicit drugs]. ” (47)

Therefore, the probable course of events is: 1) nicotine addiction leads to continuous
tobacco use, either as spit tobacco, cigarettes or both, which leads to 2) continuous intake
of carcinogenic or other harmful substances, that, in time, may lead to 3) cancers and a
whole host of other disease processes.

b	 Dm”ly, sustained use is often the p~ern for young people; many admit to nicoti”ne
   addiction.

Young spit tobacco users follow a frequent and intense use pattern. One national study
found that daily use rates among current users were 55 percent for young people between
11 and 15 years old, and 70 percent for those between 16 and 18 years old (48). Further,
regional and State data show young male spit tobacco users consume, on average, between
one to three or more cans of snuff per week and one to three or more pouches of chewing
tobacco (11, 13,49). Our 1992 users averaged 3.5 cans of snuff or almost 1 pouch of
chewing tobacco a week. They averaged use of over six times per day, with over one-
fourth using ten or more times a day -- a nicotine intake equivalent to 1.5 to 2 packs of
cigarettes. Young users also keep each tobacco dose in their mouths anywhere from 10
minutes to one hour, with more than twenty minutes not uncommon (17,49-51). Our
1986 and 1992 users typically held their dip or thaw 25 to 30 minutes, with most keeping
it in over 30 minutes, and often up to an hour.

Addiction continues to be a problem for
young users. The 1986 OIG report on spit           “I’ve quit 4 or 5 times, but only for a
tobacco found 37 percent of young users            week. Then 1 think, using hasn’t done
continued spit tobacco use because they were       any damage, so I go back to it. ”
addicted. Many wanted to quit and had tried


                                               7
many times only to fail due to the strong hold their habit had on them. The majority used
spit tobacco every day, and believed it would be very hard for them to quit. Since 1986,
other studies of young users have reported similar fiidings (12,48,52). In 1992, 85
percent of our key informants say more young users are addicted to spit tobacco, and all
agree that quitting spit tobacco use is difficult for them. Sometimes, a young user may
not know (s)he is addicted. One key informant observed, “Many haven’t tried to quit.
But when we tell them the health consequences, and then they try to quit, they can’t. ”
Nearly 75 percent of our 1992 current users admit they are addicted. Forty-two percent
have tried to quit, many two or more times.


Family, Friends And Other Incentives Strongly Contribute To Under-Age Use.

& Male relaiives and peers gretily in$luence young people’s spit tobacco use.

Perceived social support from fathers, other male relatives and peers is the most
influential reason youth frost try spit tobacco. i In fact, most beginning tobacco users are
given their first spit tobacco by these same people (17,18, 19b,53). Several studies have
found one-quarter to one-third of young users have someone in their family who uses spit
tobacco (49,54,55). Family use is as high as 62 percent for Native American populations
55). According to key informants, use of spit tobacco by friends and family members
strongly motivates young people to start using. Nearly two-thirds rate friends as the most
powerful influence.

                                        7
                                           OIG user studies show the same influences. In
  “Grandfather got me hooked on it. ”      1986 and 1992 users said the most influential
                                           reason for trying spit tobacco was peer pressure
  “It keeps the kids off hard drugs,       and other family members’ use. In fact, at the
  and they don’t use a Iot of candy. w     time when the 1992 users started their spit
  -- A user’s father                       tobacco use, 37 percent had a father using, and
                                           33 percent had a brother or other male relative
using. In both studies, most users believed their fathers, brothers and best male friends
either approved or accepted their spit tobacco use. In 1986, parental approval, or at least
acceptance, of spit tobacco use was exemplifkd by the 93 percent of users who said their
parents knew they used and the 87 percent who listed their homes as a regular setting for
use. The majority of our 1992 users felt their parents would agree that using spit tobacco
is better than smoking or using drugs.

�	   The basebaJl connection, product placement in stores and “look-dikes” jkrther
     enhance acceptability of use.

Some experts say the connection between baseball

and spit tobacco use is a powerful influence on

                                                         “Famous athletes use dip. One

shaping youthful behavior (26). That is, many
                                                         of the things that goes along with

baseball players use spit tobacco, and young people
are aware they do. Researchers studied 1109              p~y~g ball is taking a dip. ”



                                              8
members of major and minor league professional baseball during spring training of 1988.
Thirty-eight percent of the players currently used spit tobacco. Most used moist snuff,
Copenhagen and Skoal being the most preferred brands (37). By 1991, current use by
baseball players reached 45 percent -- “unprecedented in the history of baseball and the
nation. “(26)

Product placement in stores and spit tobacco imitations also influence young people.
Local studies have found distributors locate moist snuff in stores that youth visit
frequently, and they often place it next to cigarettes, candy and snacks (26,56-58).
Chewing gum manufacturers have a shredded gum called “Big League Chew” and a tape-
shaped bubble gum rolled to fit into a flat, round metal container, similar to a snuff tin
(59). Sunflower seeds are marketed as “Dugout Chew” and other products resembling
snuff, such as beef jerky, have been marketed to youth. The National Dental Tobacco
Free Steering Committee took exception to this marketing technique and has resolved to
“condemn the manufacturing and marketing of candy and gum packaged to look like
tobacco products. ” (60)


Extensive And Successful    Promotion   Of Spit Tobacco Vktimizes    Susceptible   Youth.

�	   Moist snuff consumption has nearly tripled since 1972, making it a very profitable
     business.

Moist snuff and looseleaf chewing tobacco are the two most popular forms of spit
tobacco, but their growth patterns have been quite different (61). Since 1972, pounds of
moist snuff consumed has grown steadily until, in 1991, it was nearly 3 times the 1972
level. Consumption has increased by 24 percent since 1986. On the other hand, pounds
of looseleaf tobacco consumed grew until 1980, when it peaked, and then declined 12
percent by 1991. The U.S. Department of Agriculture predicts that moist snuff
production in 1992 will increase from the 1991 level (62). As mentioned earlier, in 1970
men over the age of 55 were the heaviest users of snuffi by 1985, males under the age of
19 had replaced them. Seventy-eight percent of our 1992 users prefer moist snuff,
particularly once they became regular users.

One company, U.S. Tobacco Company (UST), dominates the spit tobacco industry with
its moist snuff products, the most popular being Copenhagen and Skoal (61). In fact, key
informants and our 1992 users named Copenhagen and Skoal as top choices among spit
tobacco options. In 1991, UST produced 87 percent of the moist snuff consumed and
held the largest market share of all spit tobacco produced. In a 1991 Annual Report, UST
said net sales for the tobacco segment rose 18 percent to $773.2 million; net earnings
reached $265.9 million, a 19 percent increase from the prior year due primarily to the
tobacco segment (63). A July 1992 Kidder Advisory on stock market investments
characterized UST as “very well positioned in a high-growth, highly profitable industry. ”

The growth in moist snuff sales is remarkable considering the publicity surrounding the
death of Sean Marsee eight years ago (64). Marsee started using Copenhagen at age 13


                                              9
when he received a free sample at a rodeo. Six years later he died of oral cancer, and his
family fded a $147 million product liability suit against UST in 1986. The company won
the Marsee case in 1989 after an appeals court upheld the lower court verdict. Despite
the negative press, UST’s profits increased steadily. Further, in 1990 pinkerton
introduced Red Man moist snuff to compete against UST (26).

w Spit tobacco companies ach”velymarket products in selective venues.

Most of the industry’s intense and well-funded marketing efforts take place outside media
centers. Radio and television advertising ended by law in August 1986 while advertising
expenditures for newspapers, magazines and billboards declined in both 1988 and 1989.
Entertainment and distribution of free samples have been the largest expenditure categories
in recent years. Public entertainment has been the largest single advertising and
promotion spending category every year from 1986 to 1989. In 1989 it accounted for 24
percent of the total spending on advertising and promotion, and equalled nearly $20
miLlion (65). Expenditures on distribution of free samples exceeded $15 million in 1989
and were the second largest category of promotion and advertising that year (65). Under
the categories of public entertainment and endorsements, the five major spit tobacco
companies spent a total of $17.6 million on sports and sporting events in 1988, and $19.6
million in 1989 (65).

~ Intentional or not, spit tobacco promotions do appeal to people under age 18.

The activities and images portrayed in spit tobacco promotions are attractive to young
people. Researchers and key informants point, for example, to the industry’s sponsorship
of sporting and entertainment events -- auto racing, rodeos, monster truck shows, tractor
pulls and country/western concerts. Typical of the industry, UST and others spent
millions to sponsor such events; Pinkerton has acted as a promoter to organize country
western concerts (64). Experts also reference young-appearing or “macho” models in
                                          magazine or bill board advertisements, free
                                          samples, advertising in magazines that young
  “Walt Garrison talked about Skoal.      people read, and give-sways of caps, clothing or
  I wanted to be li%e him. He’s a         other items that bear the brand logo. The “spit
  hero. I wanted to be one also. ”        tobacco image” strongly appeals to young males.
                                          Typical descriptions used by researchers and key
informants are a macho, masculine or “grown-up” image; a context of vitality, popularity
or excitement; a strong association with sports, hunting or the outdoors, or with sport or
entertainment heroes; and themes of rebellion and independence.

The intended audience of spit tobacco promotions is a controversial issue. Some

researchers (25 ,26,58, 66-68) and 97 percent of key informants said spit tobacco

promotions definitely target young people, including those under age 18. In addition to

the activities and image already mentioned, they cite print ads that provide instructions on

how to use spit tobacco (67) and moist snuff products with added flavorings and

sweeteners. UST has admitted to the intended “graduation process for consumers using its

products. “(67) Critics assert the “graduation” is in terms of nicotine content so that a



                                             10
young user can build up a nicotine tolerance (12,25,26,67). Another example comes from
a key informant who, at a spit tobacco sponsored event, saw imprinted hats and jackets in
small sizes that would not fit adults. The indust~ has repeatedly disavowed the charge
that they intend to sell their products to minors (69-71). They also remind their critics
that the use of tobacco products for people age 18 or older is legal and that manufacturers
have a right to promote them at events designed for adult audiences.

Even if the spit tobacco companies are successful in portraying spit tobacco use as an
adult behavior, their promotions may still influence many under-age youth to use their
products (45). Emulating adult behavior or adopting an image of masculinity, athleticism
or toughness are very attractive to young people, especially boys (45). Whether they are
the intended consumers or not, large numbers of young people from many backgrounds do
obtain and use spit tobacco. Many become nicotine addicts before they finish school, and
many are seriously endangering their future health.


Spit Tobacco Laws And Their Enforcement        Are Weak And Ineffective.

�	   Amen”can public policy on spit tobacco control is inconsistent with other tobacco
     products.

Unlike the United States, many other developed countries totally ban spit tobacco sale and
use. In 1987 the Study Group on spit tobacco of the World Health Organization
recommended that countries with no history of spit tobacco use should ban it (26). By
1990 New Zealand, Australia, Hong Kong, Ireland and Belgium had banned spit tobacco.
By 1992 the European Economic Community had given preliminary approval to a ban on
these products in its 13 member nations (26). The Secretary of Health and Human
Services, has openly criticized American policies that permit the promotion of spit
tobacco, a product which is so harmful to good health (72).

American policy for the regulation and taxation of substances intended for adult use only,
such as spit tobacco, cigarettes and alcohol, is internally inconsistent. Twenty-one is the
national legal age for purchasing alcohol; 18 is the age for tobacco. As late as 1990, 16
States had no excise tax on spit tobacco while all States had excise taxes on cigarettes
(73). In 1989 Federal excise tax on cigarettes was 16 cents per pack, but only 1.8 cents
on a tin of snuff and 1 cent on a pouch of chewing tobacco (74). The Federal excise tax
on spit tobacco was only recently restored in 1985 (26). Finally, all States require retail
alcohol vendors to be licensed; only 22 States require the same for tobacco (75).

w	 The Cornprehensive Smokeless Tobacco Heai2h Educ@’on Act of 1986 has not
   worked as intended.

The 1986 Act placed advertising and packaging restrictions on spit tobacco products.
Three-fourths of key informants agree the Act has not been an effective deterrent to spit
tobacco use by young people. Criticisms from the key informants and some
research/policy data are: 1) young people don’t read or don’t heed the warning labels on


                                              11
spit tobacco containers, the labels are too small or the wording isn’t strong enough
(27,35,76); 2) the Act had no effect on State or local laws or their enforcement, and
youth still have easy access to spit tobacco (18,35,56-58,68,77,78);   3) the Act has not
been enforced and some provisions are weak, thus allowing the industry to circumvent
restrictions on advertising via electronic media (26,34,69,75,79); 4) no funds were
appropriated to support the educational provisions of the Act; and 5) the powerful appeal
of industry advertising is difficult to overcome (24,35,43,72).

A recent exception has been the Federal Trade Commission’s (FTC) enforcement of some
provisions. The FTC has given final approval to a consent agreement with Pinkerton
(Red Man spit tobacco products), settling charges that the company violated the 1986 Act,
by among other things, advertising its tobacco products at live truck and tractor pulling
events and allowing those ads to be filmed for television broadcast (80). In 1991 the FTC
announced it had adopted final amendments to its regulations under the 1986 Act.
Utilitarian items, such as golf balls, cuspidors and tee-shirts, are no longer exempt from
the health warning requirement.

�	   A pa~”cular point of contention is the promotional prwctice of distn”butingfree
     samples of spit tobacco

Industry critics are concerned that many under-age youth can readily obtain spit tobacco
through distribution of free spit tobacco samples. This activity is not addressed in the
1986 Act. Industry codes and standards regarding distribution of samples say, in part: 1)
mail-in requests for spit tobacco products may be honored if it can be reasonably
ascertained that the intended recipient is 18 years of age or older, and 2) whenever
                                   samples are distributed, persons who appear to be under
                                   18 years of age shall be required to furnish proof of age
  “I got free samples at fairs     (116). Critics say spit tobacco companies and their
  and rodeos. ” -- User, age       representatives do not adhere to these codes and
  16, started at age 9.            standards. For example, on the coupon for mail-in offers
                                   of free samples, the requester must merely ~ that (s)he
is 18 years of age or older. In reality, a spit tobacco company, using this procedure,
cannot verify age. A Doctors Ought to Care (DOC~ member alleges, based on extensive
personal observation, that young people’s age is rarely verifkd before they receive a free
sample. Key informants strongly recommended banning the distribution of samples
through the mail or in other situations where age cannot be verified or banning free
samples altogether. NCI agrees, saying “the offer of free tobacco products is reminiscent
of the drug pusher who gives the frost free sample to get his customer hooked. ” (68)

k State and local tobacco laws and enforcement are weak.

Loopholes exist in State and local tobacco control and access laws. By 1990 only three
States met the standards for “basic” coverage based on the criteria established by the
Office of Smoking and Health (OSH of CDC), which in addition to a minimum age for
sale, recommend penalties for merchants selling tobacco to minors (68). No State law is
considered “comprehensive” by OSH standards, i.e., in addition to the above, there


                                              12
should be a requirement for warning signs at the point of purchase, provision to revoke
merchant licenses for violation and a ban on the distribution of free tobacco products (68).
Only 22 States prohibit distribution of tobacco product samples to minors (75).

States and localities do not enforce existing tobacco control and access laws. In 1992 the
OIG surveyed the States about tobacco control and access, and found virtually none
enforce their laws prohibiting the sale of tobacco to minors (81). Eighty-five percent of
key informants believe enforcement of spit tobacco sales laws is ineffective. Most favor
stronger enforcement including stiffer penalties and license revocations for selling spit
tobacco to minors. Smaller, community-based studies show that minors can generally
purchase tobacco products at will, and vendors rarely suffer the legal consequences
(56,57,77,81). In fact, in studies across the country, it has been shown that, on average,
75 percent of retail stores sell tobacco to minors as young as age 12 (68). Fifty-seven
percent of our 1992 spit tobacco users reported it was easy to purchase spit tobacco as a
minor. Fifty-three percent stated they were “never” or “hardly ever asked” for proof of
age when they purchased their spit tobacco.

�   Expetis favor revisions to spit tobacco control policies.

Revisions to policies on product promotion and legal restrictions would improve attempts
to discourage spit tobacco use by young people. For both areas, key informants strongly
support requiring warning labels on billboards and raising the legal age for purchasing to
21. They also see higher Federal and State excise taxes on spit tobacco as beneficial.
Research has shown higher prices will effectively discourage purchase by young people
(35 ,74). In fact, other than developing serious health problems from use, higher price
was the only strong reason to quit for many of our 1992 users. Finally, key informants
support further promotional restrictions: banning giveaway items imprinted with brand
logos, or appearance of brand logos in televised events; elimination of advertising
messages implying spit tobacco is a healthier choice than cigarettes; and limiting the
number or type of events a spit tobacco company can sponsor.


Under-Age Spit Tobacco Use Is A Community          Problem,     Requiring   Broad
Interventions.

k Spit tobacco use is o$ien socially acceptable within a community.

Communities sometimes do not understand the social and legal issues of tobacco use until
their consciousness is raised. Several local studies have shown that adherence to laws
restricting tobacco sales to minors greatly improved after educating the community in
general, and the tobacco vendors in particular, on the tobacco access laws (77,81). A
community physician suggested local education requires demonstrating how easy it is for
youth to obtain tobacco, generating concern over the health problems of tobacco use, and
subsequently developing local and school policies on tobacco control (83). All key
informants agree parents need to be better informed of the adverse effects of spit tobacco
use. Community education may even have to extend to legislators or the judiciary who
write and enforce laws (77, 84). For example, Davis County, Utah demonstrated an
apparent decrease of spit tobacco use among county male athletes, by using these and
other methods that alerted the entire community to the problem and the proposed solution
(18),

~ Schools do not control spit tobacco use.

Schools, whose students are predominantly under age 18, do not uniformly ban spit
tobacco use. In 1990, 11 States did not have laws restricting tobacco use in schools and
only 16 State departments of education had a policy on tobacco use in schools (75). The
1986 OIG report found that schools frequently do not prohibit spit tobacco use or do not
                                          enforce the rules. In the 1992 study, while users
                                          said their school rules did not permit spit tobacco
  “My wrestling coach wrestles with       use on the school property (83%) or at school-
  Copenhagen in his mouth.”               sponsored events (67 %), 26 percent also said
                                          enforcement of the school rules ranged from
  “If you’re not spitting on the floor,   “sometimes” to “never”. Of the 1992 users, 76
  teachers usuaily don’t bother you. ”    percent have seen a coach or teacher at their
                                          school use spit tobacco. A young user related,
that on one occasion, he was sent to the school office for using spit tobacco in class.
When he arrived, the dean of boys called him in, closed the d~o~ and offered him a dip of
snuff. Two-thirds of our 1992 users reported taking a dip or thaw before class.

Experts favor tobacco-free schools as a goal. NCI (68), PHS’ Healthy People 2000 (75),
the World Health Organization (35) and the First International Conference on Smokeless
Tobacco (47) all strongly support this policy. Prohibiting all spit tobacco use on school
grounds or at school-sponsored events, and prohibiting teachers and coaches from using in
a student’s presence are policies the key informants overwhelmingly endorsed as well. In
addition, 97 percent of key informants believe school programs need to provide cessation
guides or counseling for young users who wish to quit.

~ Spit tobacco cum”culufor young people are inadequtie.

Young users are still ignorant about addiction and other health effects associated with spit
tobacco use. In 1986, 81 percent of OIG users
 interviewed saw spit tobacco as much
safer to use than cigarettes. Youthful users

continue to believe this according to 91

percent of key informants. Among our 1992
         “Cigarettes can ruin your kings. Can’t
users, 63 percent saw spit tobacco as safer
      get new lufigs. Spit tobaccm doesn’t
to use than cigarettes and 15 percent didn’t
     affect your stamina. ”
know. The 1986 OIG study found many

youth were unaware of the potential health
        “Dad has been using for 26 years, and
risks of spit tobacco use, including
             it hasn’t done anything to him.”
addiction. In 1992 over half of key

informants still rate elementary, junior high and senior high students as unaware of the
health risks of spit tobacco use. Eighty percent of our 1992 users could name oral cancer,


                                              14
but their knowledge was weak for gum recession (24 %), throat cancer (20 %), addiction
(13 %) and leukoplakia (7%). Even if young users are intellectually aware of the effects,
they don’t really believe that spit tobacco endangers their health -- “It can’t happen to me”
syndrome.

Experts see a need to improve the frequency and content of school curricula addressing
spit tobacco. School education about the health consequences of tobacco use was
mandated by law in only 20 States in 1989 (68). Two-thirds of key informants
recommend the annual inclusion of the health effects of spit tobacco use in school
curricula for elementary, junior high and senior high schools. Eighty-two percent say spit
tobacco education should start in the third grade or earlier, even in kindergarten; others
agree (18 ,68, 85-87). Thus, tailoring curricula to the students’ age level is necessary
(55,86-89). One analysis of 28 examples of spit tobacco educational materials (1976 to
1986) found the focus was correct (young white males), but social and reading levels
tended to be aimed at 7th grade or older (89). Just providing information on the hazards
of tobacco use, which many schools do, has been found largely ineffective (68). Simply
teaching youth to say “no” does little to combat peer pressure to adopt peer group
opinions and values and to gain group acceptance (90,91). So, linking the course content
to what motivates young people to use is another improvement (55,68,90,92).

b Educaled, proactive health professwnals are impotiant to community intervention.

Health professionals have a unique opportunity to discourage spit tobacco use. The dental
profession treats 62 percent of the American population within any one year interval,
including 75 percent of persons age 5 to 17 (60). Given this large amount of contact, the
NCI calls the profession a resource to combat tobacco use by completing better oral
examinations, influencing patients’ avoidance or discontinuance of tobacco use, and
promoting the adoption of comprehensive tobacco control policies (60). In addition,
physicians are seen as a credible source of cessation advice. At the time of consultation,
patients are sensitized to their health, thus creating the “teachable moment. ” (68) Key
informants unanimously favored strong, proactive education, intervention, counseling and
advocacy roles for health professionals.

Many health professionals, however, are not doing as well as they could. Despite the fact
that most physicians believe it is their responsibility to encourage their patient to abstain
from using tobacco, many fail to do so routinely with all patients (68). Some are
ambivalent about the economic value of interventions, and they have a fear of losing
patients (93). Key informants strongly believed that health professionals, particularly
dentists, dental hygienists, school nurses and family physicians, are not sufficiently trained
to prevent or intervene in spit tobacco use. Basic skills needed are the ability to recognize
spit tobacco use and its adverse effects, and the signs and effects of addiction. One key
informant and his colleagues wrote, “The Ml extent of tobacco’s contributions to oral
disease often remains unrecognized by oral health professionals. ” (33) Counseling
techniques, and available educational and cessation materials are also appropriate training
topics, either in the professional schools or as part of continuing education afterwards.



                                              15

~ Divorcing baseball fioin spit tobacco use is another educti”onal stralegy.

In some cases, sport and spit tobacco use are so closely intertwined that it is as much a
part of some sports as uniforms and officials (43). Major League Baseball (MLB) was
displeased with the tendency of the spit tobacco industry to presume and trade on the link
between spit tobacco and baseball (94). They were also concerned with evidence that
young spit tobacco users were emulating baseball players. MLB, therefore, began a major
initiative to break their link with spit tobacco use that included a spit tobacco “white
paper” for the Commissioner’s office, the creation of an MLB fund to support player
health and safety vis-a-vis spit tobacco use, and an attempt to convince two major
networks’ cameramen not to focus on spit tobacco use. Other steps under consideration
are a media campaign featuring MLB players who have quit, setting a date when spit
tobacco use would not be allowed in the ballpark, and assisting currently addicted players
to quit. Individual MLB teams have instituted additional policies of their own.k

Breaking the association between spit tobacco use and sport has also been a goal of other
professional and amateur sport associations. In 1992 all players in the Class A minor
league were prohibited from using spit tobacco. Little League,l Babe Ruth League,
American League (ages 16 to 18) and US Olympic baseball have all banned tobacco use.
Some have also begun educational campaigns (95). The NCAA banned tobacco use
during tournament play, followed by a Southeastern Conference baseball ban for all league
games (96).




                                            16

                              CONCLUSIONS

The responsibility for addressing the problem of spit tobacco use by young people rests
with many groups at the national, State and local levels. At the Federal level besides the
Department of Health and Human Services (primarily the Public Health Service), several
other Departments or agencies are involved -- the Federal Trade Commission, the
Department of Agriculture, and the Department of the Treasury. Below, we lay out four
broad areas for action by all responsible groups. We strongly encourage the Department
of Health and Human Services to take the lead in coordinating efforts to deal with the
problem of spit tobacco use. We believe these efforts should have four major goals:

   To convince the general public, including young people, that spit tobacco is a
   dangerous and addictive drug, not a safe alternative to smoking.

   Based on this awareness, to encourage States and communities to take actions that
   effectively combat young people’s spit tobacco use.

   To solicit support from health care providers and organized athletics which have a
   unique and important role in deterring spit tobacco use.

   To provide leadership for the re-examination of legislation and regulatory provisions
   governing spit tobacco and for assuring a coordinated plan for deterring spit tobacco
   use.

Promote Commumly Awareness And Action.

Responsible groups should lead a public information campaign to raise community
awareness and concern about the problem of youth use of spit tobacco. To support
community efforts to curtail use, these groups should actively promote tobacco control
policies for schools in coopemtion with the Federal and State Education departments.

Suppoti Improved Staie And Local Tobacco Control.

Responsible groups should support State and local laws that strongly restrict tobacco sales
to minors and the sustained enforcement of these laws.

Seek 17ze Suppoti And Involvement Of Health Care Prwiders And Organized Athletics.

Medical and dental professionals have a unique opportunity to positively impact the
problem of spit tobacco use by young people. Responsible groups should make every
effort to equip, encourage and involve these professionals. These groups should alSO
actively promote collaborative efforts to deter spit tobacco use by athletes at all levels.




                                               17
Re-examine iVah”onalTobacco Control Policy And Coordinate APlan For Detem”ng
Youth Use Of Spit Tobacco.

Responsible groups should re-examine national tobacco control policy for areas that need
strengthening, e.g., legal age of purchase, higher excise taxes indexed for inflation, and
amendments to the 1986 Act. These groups should also develop a coordinated plan for
research and information dissemination on spit tobacco issues among the various groups
responsible for spit tobacco issues.




                                             18

                                       ENDNOTES

a.	   While current, national data is not available, data from these select States indicate
      a potentially serious problem with spit tobacco use exists in all States.

b.	   “Despite varying methodologies among the national surveys, sufficient
      commonatities permit meaningful comparisons,... [Comparisons] between the 1970
      NHIS and 1985 CPS for the purpose of examining trends are appropriate. ” (4)

c.	   In addition, the 1985 NIDA Household Survey showed past year spit tobacco use
      by males age 12 to 17 had risen to only one percent behind 18 to 24 year olds, and
      was more than double the rate of all other adult male age groups (144). In fact,
      12-17 year old males had the highest past year use of all male age groups in the
      Western (25 percent), North Central (22 percent) and Southern (24 percent)
      regions of the nation.

d.	   NCAA comparative data from 1985 and 1989 on spit tobacco use. Spit tobacco
      use increased across both genders, all racial/ethnic groups, all sports, all NCAA
      divisions and in most geographical regions of the country.


           Percent use of spit tobacco in last      12 months by student-athletes by sport

          Male                 1985          1989        Female              1985         1989

          Baseball             45%           57%         Softball             8%           9%

          Basketball             8%          15%         Basketball           2%           4%

          Football              30%          40%          Swimming            3%           3%
          Track                  9%          20%         Track                3%           5%
          Tennis                12%          29%          Tennis
                       Percent use by student-athlete    by region and collegedivision
                                                                         I            I
          East                  15%          25%         Division I          19%     !    27%
                                                                         !
          Midwest               19%          33%          Dhision II     I   23%      !   29%

          South            !    25%     !    23%          Division III       19%      I   27%

          west                  24%          24%                   Source: NCAA (5), 1989
                           I            I                     ’85 (N = 2,039), ’89 (N = 2,282)




e.	   N = 3,159 in 1986 and N = 2,852 in 1989. Unfortunately, spit tobacco questions
      were omitted from the Senior Survey in 1990 and 1991.




                                                        19

f.	   For example, nicotine (or another addictive drug) causes dose-related changes in
      mood or feeling, and users often compulsively use tobacco despite the damage it
      does to their health. Effects of the drug, desirable for the user, reinforce him/her
      to use it again. Over time the user will develop a tolerance for the drug so that a
      dose produces less effect. Physical dependence can also occur accompanied by
      withdrawal symptoms such as craving, difficulty sleeping or concentrating,
      restlessness and excessive hunger, if the user stops.

!?.   Ninety-five percent of oral cancers occur in persons over the age of 40 (40).

h.    These effects are sometimes suggested, but not proven, for short-term use.

i.	   Curiosity also encourages young people to use (49). In the 1986 and 1992 studies
      users placed curiosity among the top reasons for trying spit tobacco.

j.    A public health advocacy group comprised of medical professionals.

k.	   The Rangers have stopped supplying spit tobacco in the clubhouse (146), the
      Dodgers have banned all players from carrying spit tobacco while in uniform and
      the Athletics recently banned tobacco advertising in their program. (95)

1.    Little League banned the use of tobacco 35 years ago.




                                            20

                          BIBLIOGRAPHY

A. Prhnary

1.    U.S. Department of Health and Human Services, Public Health Service, Center for
      Disease Control, “Selected Tobacco-Use Behaviors and Dietary Patterns Among
      High School Students-United States 1991, ” Morbidity ati Mortaliv weekly
      Report, June 1992.

2.    U.S. Department of Health and Human Services, Public Health Service, Center for
      Disease Control, “Tobacco, Alcohol and Other Drug Use Among High School
      Students - United States 1991, ” Morbidiq and Mortality Weekly Report, 41,
      September 1992.

3.    U.S. Department of Health and Human Services, Public Health Service, Center for
      Disease Control, “Current Tobacco, Alcohol, Marijuana and Cocaine Use Among
      High School Students - United States 1990, ” Morbidity and Monalio Weekly
      Report, 40, September 1991.

 4.   U.S. Department of Health and Human Services, Public Health Service, National
      Institutes of Health, “The Health Consequences of Using Smokeless Tobacco, ” a
      report of the Advisory Committee to the Surgeon General, NIH Publication No.
      86-2874, April 1986.

 5.   National Collegiate Athletic Association, “Replication of the National Study of the
      Substance Use and Abuse Habits of College Student-Athletes, ” College of Human
      Medicine, Michigan State University, October, 1989.

 6.   U. S. Department of Health and Human Services, Public Health Service, National
      Institute on Drug Abuse, “Monitoring the Future, ” 1986-1989.

 7.    Connecticut Department of Health Services, Connecticut Health Check’s 1989-90
       school data.

 8.    Tri-Agency Tobacco Free Project, “Maine Youth Tobacco Use Sumey: 1991, ”
       Brunswick, Maine.

 9.    Tri-Agency Tobacco Free Project, “Maine Youth Tobacco Use Survey:        1989, ”
       Brunswick, Maine.

10.    Tri-Agency Tobacco Free Project, “Maine Youth Tobacco Use Survey:        1987, ”
       Brunswick, Maine.

11.    Illinois Department of Public Health, “Smokeless Tobacco Survey, ” August 1987.




                                            21
12.	      Brownson, Ross C., Thomas M. DiLorenzo, Mark Van Tuinen, and William W.
          Finger, “Patterns of Cigarette and Smokeless Tobacco Use Among Children and
          Adolescents, ” Preventive Medicine, 19:170-180, 1990.

13.	      Bruerd, Bonnie, “Smokeless Tobacco Use Among Native American School
          Children, ” Public Health Reports, 105:2:196-201, March-April 1990.

   a.	 Schlife, C., “Smokeless Tobacco Use in Rural Alaska, ” Morbidity and Morlality
       Weekly Report, 36:140-143, March 1987.

   b.	 Schinke, S.P., et al., “Smokeless Tobacco Use Among Native American
       Adolescents (letter). ” New England Journal of Medicine, 314:1051-1052, April
       1986.

       c.	 Schinke, S.P., et al., “Pacific Northwest Native American Youth and Smokeless
           Tobacco Use, ” Iruernational Journal of Addiction, 22:8881-884, 1987.

       d.	 Wolfe, M. D., and J.P. Carlos, “Oral Health Effects of Smokeless Tobacco Use in
           Navajo Indian Adolescents, ” Cornrnuni~ Dental Oral Epidemiology, 15:230-235,
           1987.

       e.	 Jewett, K., et al, “Prevalence of Oral Lesions and Smokeless Tobacco Use in
           Northern Plains Indians, Morbidity and Mortality Weekly Report, 37:608-611, Oct.
           1988.

       f.	 Hall, R. L., and D. Dexter, “Smokeless Tobacco Use and Attitudes Toward
           Smokeless Tobacco Among Native Americans and Other Adolescents in the
           Northwest, ” American Journal of Public Health, 78; 1586-1588, 1989.

       g.	 Battier, Terry, Unpublished data collected from Indian Health Service dentists.
           May 1988

       h.	 Foster, John, Unpublished data collected from Indiand Health Service dentists.
           May 1988.

14.	      North Dakota State Department of Health and Consolidated Laboratories, “Youth
          Cigarette Smoking, Smokeless Tobacco Use, and Access to Tobacco in North
          Dakota, “ 1991.

15.	      Bonaguro, John A., Maureen Pugh, and Ellen W. Bonaguro, “Multivaf’iate
          Analysis of Smokeless Tobacco Use by Adolescents in Grades Four Through
          Twelve, ” Health Education, April/May 1986.

16.	       Orlandi, Mario A. and Gayle Boyd, “Smokeless Tobacco Use Among Adolescents:
           A Theoretical Overview, ” Smokeless Tobacco Use in the United States: National
           Cancer Institute Mongraphs, 8:5-12, 1989.


                                                22
      a. Young, M. and D. Williamson, “Correlates of Use and Expected Use of Smokeless
         Tobacco Among Kindergarten Children, ” Psychological Reports, 56:63-66, 1985.

      b. Schaefer, S.D.; A.H. Henderson, E.D. Glover, et al., “Patterns of Use and
         Incidence of Smokeless Tobacco Consumption in School-Age children, ” Archives
         of Otolaryngology, 111:639-642, 1985.

      c. Glover, E. D., “Regional Prevalence and Patterns of Smokeless Tobacco Use. ”
         Presented at the NH Consensus Development Conference on Health Implications
         of Smokeless Tobacco Use, Bethesda, MD, January 1986.

      d. Mariciano L. A., Personal communication.

      e. Offenbacher S. and D.R. Weathers, “Effects of smokeless tobacco on the
         periodontal, mucosal and caries status of adolescent males, ” Journal of Oral
         Pathology, 14:169-181, 1985.

17.      Ary, Dennis V., Edward Liechtenstein, and Herbert Severson, “Smokeless Tobacco
         Use Among Male Adolescents: Patterns, Correlates, Predictors, and the Use of
         Other Drugs, ” Preventive Medicine, 16:385-401, 1987.

18.      Leopardi, Enrico A., Todd C. Poulson, Brad L. Neiger, James E. Lindenmuth,
         and Robert O. Greer, “A Report of Two Smokeless Tobacco Surveys and
         Associated Intervention Strategies Among Utah Adolescents, ” Journal of Cancer
         Education, 4:125-134, 1989.

19.      U. S Department of Health and Human Services, Public Health Service, National
         Institutes of Health, National Cancer Institute, smoking, Tobacco, and Cancer
         Program -1985-1989 Status Report, September 1990.

      a. Project Abstracts: “Smokeless Tobacco Use Among KY Youth: A Feasibility
         Study, ” University of Kentucky.

      b. Project Abstracts: “Tobacco Use and Attitudes Among Rural Youth, ” West
         Virginia University.

      c. Project Abstracts: “Prevention of Smokeless Tobacco Use During Adolescence, ”
         University of Missouri.

20.      Oklahoma State Department of Education, “Drug and Alcohol Use Among State of
         Oklahoma Students, ” 1989-90.

21.      Hoffmann, D., M.V. Djordjevic, K.D. Brunnemann, “On the Control of Toxic
         Substances in Smokeless Tobacco, ” presented at smokeless tobacco workshop,
         National Cancer Institute and National Institute of Dental Research, Bethesda MD,
         January 24, 1991.


                                               23
22.   U. S. Department of Health and Human Services, Public Health Service, National
      Institutes of Health, “Health Implications of Smokeless Tobacco Use, ” Consensus
      Development Conference Statement, 6:1 from January 13 to 15, 1986 Conference.

23.   Mattson, Margaret E. , Deborah M. Winn, “Smokeless Tobacco: Association With
      Increased Cancer Risk, ” Smokeless Tobacco Use in the Uni~ed States: National
      Cancer Institute Monographs, 8:13-16, NIH Publication No. 89-3055, 1989.

24.   Greenwald, Peter, MD, Director, Division of Cancer Prevention and Control,
      National Cancer Institute, in a letter dated June 4, 1991 to Mr. Klaus Unger,
      President, Procordia, Stockholm, Sweden.

25.   Connolly, Gregory N., DMD, MPH, C. Tracy Orleans, PhD, Michael Kogan,
      PhD, “Use of Smokeless Tobacco in Major League Baseball, ” New Engkzd
      Journal of Medicine, 318:1281-1285, May 12, 1988.

26.   Connolly, Gregory N., DMD, MPD, C. Tracy Orleans, PhD, Alan Blum, MD,
      “Snuffing Tobacco Out of Sport, ” American Journul of Public Health, 82:3:351-
      53, March 1992.

27.   U.S. Department of Health and Human Services, Public Health Service, Centers
      for Disease Control, “The Health Consequences of Smoking: Nicotine Addiction, ”
      a report of the Surgeon General, 1988.

28.    Benowitz, Neal L., MD, “Nicotine and Smokeless Tobacco, ” Ca-A Cancer Journal
      for Clinicians, American Cancer Society, 38:4:245-247, July/August 1988.

29.   Grady, D. MD, MPH, J. Greene, DMD, MPH, T.E. Daniels, DDS, V. L. Ernster,
      Ph. D., et al., “Oral Mucosal Lesions Found In Smokeless Tobacco Users, ”
      Journal of ~heAmerican Dental Association, 121(1):117-23, July 1990.

30.   Creath, Curtis J., DMD, MS, Gary Cutter, Ph. D., Dorothy Bradley, MS and J.
      Timothy Wright, DDS, MS, “Oral Leukoplakia and Adolescent Smokeless
      Tobacco Use, ” Oral Surgery, Oral Medicine, Oral Pa~hology, 72:35-41, ~99~.

32.   Greer, Robert O., DDS, SCD, and Todd Poulson, DDS, “Oral Tissue Alterations
      Associated wth Use of Smokeless Tobacco by Teenagers, I. Clinical Findings, ”
      Oral Surgery, 56:3:275-284, September 1983.

33.   Christen, Arden G., DDS, MSD, MA, James L. McDonald, Jr., PhD, Joan A.
      Christen, 13GS, MS, Zhe Impact of Tobacco Use and Cessation on Nonmalignant
      and Precancerous Oral and Dental Diseases and Conditions, an Indiana Univeristy
      School of Dentistry teaching monograph, June 1991.




                                           24



                                                                             ——+.
                                                                               ___
34.   U.S. Department of Health and Human Services, Centers for Disease Control,
      Office of Smoking and Health, “Smokeless Tobacco and Health” (draft chapter),
      Report to Congress for the Comprehensive Smokeless Tobacco Health Education
      Act of 1986, 1991.


35.   World Health Organization, Smokeless Tobacco Control, report of WHO study
      group, WHO Technical Report Series, 773, 1988.

36.   Benowitz, Neal L. MD, Peyton Jacob III, Ph.D. and Lisa Yu, BS, “Daily Use of
      Smokeless Tobacco: Systemic Effects, ” Annals of Internul Medicine, 111:112-116,
      1989.

37.   Ernster, Virginia L. Ph. D., D.G. Grady, MD, J.C. Greene, DMD, MPH, M.
      Walsh, Ed. D., P. Robertson, DDS, T.E. Daniels, N. Benowitz, MD, D. Siegel,
      MD, B. Gerbert, MD, W. W. Hauk, PhD, “Smokeless Tobacco Use and Health
      Effects Among Baseball Players, ” Journal of the American Medical Association,
      264:218-224, July 11, 1990.

38.   Siegel, David, MD, MPH, N. Benowitz, MD, V.L. Ernster, PhD, D.G. Grady,
      MD, MPH and W.W. Hauck, PhD., “Smokeless Tobacco, Cardiovascular Risk
      Factors, and Nicotine and Cotinine Levels in Professional Baseball Players, ”
      American Journal of Public Health, 82:3:417-421, March 1992.

39.   Winn, Deborah M. Ph. D., William J. Blot, Ph. D., Carl M. Shy, MD, Dr. P. H.,
      Linda W. Pickle, Ph. D., et al., “Snuff Dipping and Oral Cancer Among Women
      in the Southern United States, ” The New Englund Journal of Medicine, 304:13,
      March 26, 1981.

40.   U.S. Department of Health and Human Services, Centers for Disease Control,
      “Oral Cancer: Deadly to Ignore, ” CDC Briefs, 3:5:1-2, May 1992.

41.   Winn, Deborah M., PhD, “Smokeless Tobacco and Cancer: The Epidemiologic
      Evidence, ” Ca-A Cancer Journul for Clinicians, American Cancer Society,
      38:4:236-244, July/August 1988.

42.   Tucker, L. A., “Use of Smokeless Tobacco, Cigarette Smoking and
      Hypercholesterolemia, ” American Journul of Public Health, 79:8:1048-50, August
      1989.

43.   Glover, Elbert D., PhD, Elizabeth W. Edmundson, MA, Steven W. Edwards,
      PhD, Kathleen L. Schroeder, DDS, MS, “Implications of Smokeless Tobacco Use
      Among Athletes, ” lle Physician and Sportsmedicine, 14:12:95-105, December
      1986.




                                          25
44.    Hsing, A. W., J.K, McLaughlin, L.M. Schuman et al., “Diet, Tobacco Use and
       Fatal Prostate Cancer: Results from the Lutheran Brotherhood Cohoti Study, ”
       Cancer Research, 50:21:6836-40, November 1, 1990.

45.    Chassin, Laurie, Clark C. Presson, Steven J. Sherman, Lynne Steinberg,
       “Adolescents mokelessT obaccoU se: Future Research Needs,” Smokeless Tobacco
       Use in the United States: National Cancer Institute Monographs, 8:101-105, 1989.

46.    Hatsukami, Dorothy, Richard Nelson, Joni Jensen, “SmokelessTobacco: Current
       Status and Future Directions, ” British Journal of Addiction, 86:559-563, 1991.

47.    Schroeder, Kathleen L,, DDS, MSC, First International Conference on Smokeless
       Tobacco: Tobacco and Health, Columbus, Ohio, April 10-13, 1991, abstract of
       conference recommendations.

48.    Winn, Deborah M., Thomas Novotny, Sherry Mills, Stephen Marcus, and John
       Pierce, “Patterns of Smokeless Tobacco Use: Data from TAPS, ” presented at the
       annual meeting of the American Public Health Association, Atlan@ Georgia,
       November 10-14, 1991.

49.    Simon, Kenneth J., R. Craig Stotts, and Cecil Pollard, “Spitting Tobacco Use
       Among Youth in Appalachia, ” unpubfishd, May 1992.

50.    Riley, William T., James T. Barenie, and David R. Myers, “Typology and
       Correlates of Smokeless Tobacco Use, ” Journul of Adolescent Health Care,
       10:357-362, 1989.

51.    Jones, Rhys and Sue Ann Pyper, “Smokeless Tobacco: A Public Health
       Challenge, ” Illsconsin Medical Journal, 85:14-18, December 1986.

52.    Marty, Phillip J., Robert J. McDermott, Michael Young, and Rick Guyton,
       “Prevalence and Psychosocial Correlates of Dipping and Chewing Behavior in a
       Group of Rural High School Students, ” Health Education, 28-31, April/May
       1986.

53.    Hahn, Ginger, Ventura L. Charlin, Steve Sussman, Clyde W. Dent, Jorge Manzi,
       Akin W. Sticy, Brian Flay, William Hansen, and Dee Burton, “Adolescents’ First
       and Most Recent Use Situations of Smokeless Tobacco and Cigarettes: Similarities
       and Differences, ” AaUictive Behaviors, 15:439-448, 1990.

 54.   Bauman, Karl E., Gary G. Koch, and G. Michael Lentz, “parent Characteristics,
       Perceived Health Risk, and Smokeless Tobacco Use Among White Adolescent
       Males, ” Smokeless Tobacco Use in the United Stales: National Cancer Institute
       Monographs, 8:43-48, 1989.




                                            26



                                                                         —
55.   Backinger, Cathy L., Bonnie Bruerd, Mary Beth Kinney, and Susan M. Spu~ar,
      “Smokeless Tobacco Use, Knowledge, and Intent Among Sixth Grade School
      Children in Six Selected U.S. Sites, ” from personal fries of Mary Beth Kinney.

56.   Barovich, Marny, MPH, Steve Sussman, PhD, Clyde W. Dent, PhD, Dee Burton,
      PhD, Brian R, Flay, PhD, “Availability of Tobacco Products at Stores Located
      Near Public Schools, ‘f l%e International Journal of the Addictions, 26:8:837-50,
      1991.

57.   Brown, Linda J. and Joseph R. Dil?ranza, MD, “Pharmacy Promotion of Tobacco
      Use Among Children in Massachusetts, ” American Pharmacy, NS32:5 :45-48, May
      1992/421 .

58,   Braverman, Marc T., Carol N. D’Onofrio, Joel M. Moskowitz, “Marketing
      Smokless Tobacco in California Communities: Implications for Health Education, ”
      Smokeless Tobacco Use in the United States: National Cancer Institute
      Monographs, 8:79-85, NIH Publication No. 89-3055, 1989.

59.   Connolly, Gregory N., DMD, MPH, letter dated July 26, 1990 to Amurol
      Products and their response dated August 2, 1990.

60.   U. S Department of Health and Human Services, National Cancer Institute,
      National Dental Tobacco-Free Steering Committee meeting held in Rockville MD,
      June 15-16, 1992.

61.   Maxwell, John C. Jr., “The Smokeless Tobacco Industry in 1991, ” me Maxwell
      Consumer Repom, Butch & Singer Division of Wheat First Securities, April 28,
      1992.

62.   U.S. Department of Agriculture, Tobacco: Situation and Outlook Report, TS-2 19,
      June 1992.

63.   U.S. Tobacco Company, UST 1991 Annual Report.

64.   Deveny, Kathleen, “With Help of Teens, Snuff Sales Revive, ” Wall Street Jou~L
      Section B, May 15, 1990.

65.   Federal Trade Commission, “Report to Congress Pursuant to the Comprehensive
      Smokeless Tobacco Health Education Act of 1986,”1991.

66.   Myers, Matthew L., John Hollar, Mike Synar, “Tobacco Marketing and
      Promotion, ” Tobacco Use in America Conference, January 27-29, 1989.

67.   Emster, Virginia L., “Advertising and Promotion of Smokeless Tobacco
      Products, ” National Cancer Institute Monographs, 8:87-94, 1989.



                                           27
68.    U.S. Department of Health and Human Services, Public Health Service,
       “Strategies To Control Tobacco Use in the United States: A Blueprint for Public
       Health Action in the 1990’s,” Smoking and Tobacco Control Monographs No. 1,
       NIH Publication No. 92-3316, October 1991.

69.    Hilts, Philip J., “Sullivan Would End Tie of Sports and Tobacco, ” 2%eNew York
       Times, April 11, 1991.

70.    John, Glenn A., “Picking on the Little Guy: Smokeless Tobacco and Kids, ”
       Tobacco International, pp. 36-38, June 26, 1987.

71.    U.S. Tobacco Company, Notice of Annual Meeting to Stockholders, March 27,
       1992.

72.    Sullivan, Louis W., MD, Secretary of Health and Human Services, Keynote
       Address to the First International Conference on Smokeless Tobacco: Tobacco and
       Health, Columbus, Ohio, April 10-13, 1991.

73.    Coalition on Smoking or Health, State Legislated Actions on Tobacco Issues, 1991.

74.    U.S. Department of Health and Human Services, Centers for Disease Control,
       Office of Smoking and Health, Reducing the Health Consequences of Smoking: 25
       Years of Progress, a report of the Surgeon General, Publication No. (CDC) 89-
       8411, 1989.

’75.   U.S. Department of Health and Human Services, Centers for Disease Control,
       “State Tobacco Prevention and Control Activities: Results of the 1989-1990
       Association of State and Territorial Health Officials (ASTHO) Survey, Final
       Report,” Morbidity and Mortality Weekly Report, 40:IU?-11, August 16, 1991.

76.    Brubaker, Robert G., Suzanne K. Mitby, “Health-Risk Warning Labels on
       Smokeless Tobacco Products: Are They Effective?” Addictive Behaviors, 15:115-
       18, 1990.

77.    Feighery, Ellen, MS, David G. Altman, PhD, Gregory Shaffer, MA, “The Effects
       of Combining Education and Enforcement to Reduce Tobacco Sales to Minors, ”
       JournQl of the American Medical Association, 266:22:3168-71, December 11,
       1991.

 78.    National Library on Money and Politics, affiitated with the Center for Responsive
        Politics, “US Tobacco Leads All Givers to Bush Campaign CNN/National Library
        Study Shows, “ August 19, 1992.

 79.    Common Cause Magazine, “Tobacco Diplomacy, ” pp. 19-21, April/May/June
        1992.



                                            28

80.      Federal Trade Commission, “For Your Information,” January 23, 1992.

81.      U. S. Department of Health and Human Services, Office of Inspector Geneml>
         Office of Evaluation and Inspections, “Youth Access to Tobacco, ” OEI 02-92-
         00880.

81.      Jason, Leonard A., PhD, Peter Y. Ji, Michael D. Aries, Scott H. Birkhead,
         “Active Enforcement of Cigarette Control Laws in the Prevention of Cigarette
         Sales to Minors, ” Journal of the American Medical Association, 266:22:3159-61,
         December 11, 1991.

83.       DiFranza, Joseph R., MD, “Preventing Teenage Tobacco Addiction, ” The Journal
          of Family Practice, 34:6:753-756, 1992.

84.       Gillespie, James B., HI, Chairman, “Operation Science Against Smoking, ” John T.
          Hoggard High School Science Club, New Hanover County NC, May 1992.

85.       Center for Health Statistics and Bureau of Community Health and Prevention,
          Division of Health: Wisconsin Department of Health and Social Services,
          “Smokeless Tobacco in Wisconsin: Use of Chewing Tobacco and Snuff, ” March
          1988.

       a. Murray, D. “1986 Tobacco Use Among Ninth Graders in Wisconsin Public
          Schools: A Report to Participating Sc~wl Districts, ” Minnesota-Wisconsin
          Adolescent Tobacco Use Research Project.

86.	      Greer, Robert O., Jr., DDS, SCD, “Effectiveness of Video Instruction in Educating
          Teenagers About the Health Risks of Smokeless Tobacco Use, ” Journal of Cancer
          Eliucation, 4:1:33-37, 1989.

 87.	     Epps, Roselyn P., MD, MPH, Marc W. Manley, MD, MPH, “A Physician’s
          Guide to Preventing Tobacco Use During Childhood and Adolescence, ” Pediatrics,
          88:1:140-144, July, 1991.

 88.      Bruerd, Bonnie, Mary Beth Kinney, Cathy L. Backinger, “An Evaluation of a
          Smokeless Tobacco Prevention Teaching Unit for Grades K-3, ” presented at the
          1989 Annual Session of AAPHD (American Association of Public Health
          Dentistry), Hawaii.

 89.       Chen, Moon S., Jr., PhD, MPH, Kathleen Schroeder, DDS, MSC, “k Analysis
           of Print and Audiovisual Materials to Prevent Smokeless Tobacco Use, ” Jowrud of
           Cancer Wucation, 2;4:239-245, 1987.

 90.       Sussman, Steve, “Two Social Influence Perspectives of Tobacco Use Development
           and Prevention, ” Health lMucation Research: lheory and Practice, 4:2:213-223,
           1989.


                                               29
103.   Bauman, Karl E., Gary G. Koch, Lynn A. Fisher, and Elizabeth S. Bryan, “Use
       of Smokeless Tobacco by Age, Race, and Gender in Ten Standard Metropolitan
       Statistical Areas of the Southeast United States, Smokeless Tobacco Use in the
       United States: National Cancer Institute Monographs, 8:35-37, 1989.

104.   Peterson, Arthur V., Patrick M. Marek, and Sue L. Mann, “Initiation and Use of
       Smokeless Tobacco in Relation to Smoking, ” Smokeless Tobacco Use in the
       United States: National Cancer Institute Monographs, 8:63-69, 1989.

105.   l%e State of Native American Youth Health, Division of General Pediatrics and
       Adolescent Health, University of Minnesota, February 1992.

106.   Pomrehn, P. R., J, Hollarbush, V. S. Daughety, M. Jones, and S. Becker, “The
       Natural History of Smokeless Tobacco Use Among High School Boys in Three
       Iowa Communities, ” The University of Iowa, Preventive Medicine, Iowa City, IA.

107.   Edmunson, Elizabeth W., Elbert D. Glover, Paul P. Alston, and Donald Holbert,
       “Personality Traits of Smokeless Tobacco Users and Nonusers: A Comparison, ”
       The International Journul of the Addictions, 22 (7):671-683, 1987.

108.   U.S. Department of Health and Human Services, Public Health Service, Center for
       Disease Control, individual State YRBS Survey data for Nebraska, 1991.

109.   U.S. Department of Health and Human Services, Public Health Service, Center for
       Disease Control, individual State YRBS Survey data for Alabama, 1991.

110.   U.S. Department of Health and Human Services, Public Health Service, Center for
       Disease Control, individual State YRBS Survey data for Tennessee, 1990.

111.   U.S. Department of Health and Human Services, Public Health Service, Center for
       Disease Control, individual State YRBS Survey data for Tennessee, 1991.

112.   U.S. Department of Health and Human Services, Public Health Service, Center for
       Disease Control, individual State YRBS Survey data for Pennsylvania, 1991.

113.   U.S. Department of Health and Human Services, Public Health Service, Center for
       Disease Control, individual State YRBS Survey data for North Carolina, 1990.

114.   U.S. Department of Health and Human Services, Public Health Service, Center for
       Disease Control, individual State YRBS Survey data for Mississippi, 1990.

115.   U.S. Department of Health and Human Services, Public Health Service, Center for
       Disease Control, individual State YRBS Survey data for North Dakota, 1991-92.

116.   Advertising and Sampling Code for Smokeless Tobacco Products.



                                            31
B. Supplemental

117.	    Adelman, R. D., “Smokeless Tobacco and Hypertension in an Adolescent (letter), ”
         Pediatrics, 79:5:837-38, May 1987.

118.	    American Academy of Otolaryngology -- Head and Neck Surgery, “Report to the
         National Dental Tobacco-Free Steering Committee, ” June 5, 1992.

119.	    Backinger, Cathy L., Stephen H. Corbin, Lawrence J. Furman, “Smokeless
         Tobacco Use in the United States: Health Implications and Policy Options, ”
         Journal of Public Health Policy, 9:4:485-502, December 1988.

120.	    Baker, Harvey W. MD, N.H. Riclcles, DDS, MS, James T. Helsper, MD, Richard
         H. Jesse, MD, Richard B. Stark, MD, Roy W. Osterkamp, DDS, J.B. Whitten,
         DDS, Oral Cancer: Diagnosis, Treatment, Rehabilitation, American Cancer
         Society, Professional Education Publication, 1973.

121.	    Benowitz, Neal L, MD, Herve Porchet, MD, Lewis Sheiner, MD and Peyton
         Jacob III, Ph. D., “Nicotine Absorption and Cardiovascular Effects with Smokeless
         Tobacco Use: Comparison with Cigarettes and Nicotine Gum, ” Clinical
         Phamcology      and Therapeutics, 44:23-28, 1988.

122.	    Botvin, Gilbert J,, Eli Baker, Stephanie Tortu, Linda Dusenbury, and Joanne
         Gessula, “Smokeless Tobacco Use Among Adolescents: Correlates and Concurrent
         Predictors, ” Developmental and Behaw”oralPediatrics, 10:4; 181-186, August
         1989.

123.	    Boyd, Gayle, “Use of Smokeless Tobacco among Children and Adolescents in the
         United States, ” Preventive Medicine, 16:402-421, 1987.

124.	    a. Davis, S., Severson, R. K., “Increasing Incidence of Cancer of the Tongue in
         the United States Among Young Adults (letter), ” Lancet, 2:8564:910-1, October
         17, 1987.

         b. Depue, R. H., “Rising Mortality from Cancer of the Tongue in Young White
         Males (letter)” New England Journal of Medicine, 315:10:647, September 4, 1986.

         c. Schantz, S.P., R.M. Byers, H. Goepfert, “Tobacco and Cancer of the Tongue
         in Young Adults (letter)” Journal of the Amen”can Medical Association,
         259:13:1943-4, April 1, 1988.

 125.	   Dent, Clyde W., Steven Sussman, C. Anderson Johnson, William B. Hansen and
         Brian R. Flay, “Adolescent Smokeless Tobacco Incidence: Relations with Other
         Drugs and Psychosocial Variables, ” Preventive Medicine, 16:422-431, 1987.




                                              32
126.   DiFranza, Joseph R., MD, Joe B. Tye, MBA, “Who Profits From Tobacco Sales
       to Children?” Journal of the American Medical Association, 263:20:2784-2787,
       May 23/30, 1990.

127.   Eakin, Elizabeth, Herbert Severson, Russell E. Glasgow, “Developmentand
       Evaluation of a Smokless Tobacco Cessation Program, ” Smokeless Tobacco Use in
       the United States: National Cancer Institute Monographs, 8:95-100, 1989.

128.   Federal Trade Commission, “For Your Information, ” March 12, 1991.

129.   Federal Trade Commission, “FTC Settles Charges Against Pinkerton Tobacco
       Company in First Case Involving Alleged Violations of the Statutory Ban on TV
       Advertising of Smokeless Tobacco, ” FTC News, Washington D.C. 20580,
       October 29, 1991.

130.   Getz, J. G., R.I. Evans, M.J. Sharp, A. Reifman, “Perception of Significant
       Others’ Use of Smokeless Tobacco as a Factor in Use By Little Leaguers, ”
       presented at the First International Conference on Smokeless Tobacco: Tobacco
       and Health, Columbus OH, April 10-13, 1991.

131.   Gordon, Mitchell, “Bucking Bad News: U.S. Tobacco, Top Snuff Maker, Heads
       Toward Another Record Year, ” Barron’s investment News & Views, August 4,
       1986.

132.   Hatsukami, Dorothy, Deborah Anton, Robert Keenan, and Allan Callies,
       “Smokeless Tobacco Abstinence Effects and Nicotine Gum Dose, ”
       Psychophmnmology,    106:60-66, 1992.

133,   Hoffmann, D., M.V. Djordjevic, K.D. Brunnemann, “New Brands of Oral Snuff, ”
       Food Chemistry and Toxicology, 29:1:65-68, 1991

134.   Journal of Dental E2iucation, “Curriculum Guidelines for Predoctoral Preventive
       Dentistry, ” 55:11:746-750, 1991.

135.   Keenan, Robert M., Dorothy Hatsukami, and Deborah J. Anton, “The Effects of
       Short-Term Smokeless Deprivation on Performance, ” Psychopha~cology,
       98:126-130, 1989.

136.   Malvitz, Dolores M., DrPH, Moon S. Chen, Jr., PhD, MPH, Ellen M. Capwell,
       MA, CHES, Robert J, Caswell, PhD, Kathleen L. Schroeder, DDS, MSC, Herbert
       H. Severson, PhD, “Conference on Measuring the Impact of Public Law 99-252, ”
       Journal of Public Health Dentistry, 50:1:64-103, Winter 1990.

137.   Mangskau, Kathleen, RDH, Dental Program Director, Division of Maternal and
       Child Health, North Dakota State Department of Health and Consolidated
       Laboratories, in a letter dated July 24, 1992.


                                            33
138.   Marcus, Alfred C., Lori A. Crane, Donald R. Shopland, and William R. Lynn,
       “Use of Smokeless Tobacco in the United States: Recent Estimates From the
       Current Population Survey, ” Smokeless Tobacco Use in the United States:
       Nationul Cancer Institute Monographs, 8:17-23, 1989.

139.   McGinnis, J. Michael, “Tobacco and Health: Trends in Smoking and Smokeless
       Tobacco Consumption in the United States, ” Annual Review Public Health, 8:441-
       67, 1987.

140.   National Academy of Sciences, Institute of Medicine, letter from Executive Officer
       to Acting Assistant Secretary for Health, Department of Health and Human
       Services, May 15, 1986.

141.   Novotny, Thomas E., John P. Pierce, Michael C. Fiore, and Ronald M. Davis,
       “Smokeless Tobacco Use in the United States: The Adult Use of Tobacco
       Survey s,” Smokeless Tobacco Use in the United States: National Cancer Institute
       Monographs, 8:25-28, 1989.

142.   Poulson, Todd C., DDS, James E. Lindenrnuth, DDS, Robert O. Greer, Jr., DDS,
       SCD. “A Comparison of the Use of Smokeless Tobacco in Rural and Urban
       Teenagers, ” Ca-A Cancer Journal for the Clinician, 34:248-61, 1984.

143.   Riley, Willam T., James Barenie, and David Myers, “Typology and Correlates of
       Smokeless Tobacco Use, ” Journal of Adolescent Health Care, 10:357-362, 1989.

144.   Rouse, Beatrice A., “Epidemiology of Smokeless Tobacco Use: A National
       Study, “ Smokeless Tobacco Use in the United States: Nationul Cancer Institute
       Monographs, 8:29-33, 1989.

145.   Schroeder, K. L., H.A. Soiler, M.S. Chen, Jr. et al., “Screening for Smokeless
       Tobacco-Associated Lesions: Recommendations for the Dental Practitioner, ”
       Journul of the Amen-can Dental Association, 116:37-42, January 1988.

146.   Sherrington, Kevin, “Taking a Dip in Class A Ball Puts Umpires on Defensive, ”
       Dallas Morning News, page 3B, May 15, 1992.

147.   Stevens, Victor J., PhD, Herbert Severson, PhD, Edward Liechtenstein, PhD, Sally
       Jo Little, RDH, MS, Joseph Leben, DMD, “Making the Most of a Teachable
       Moment: Smokeless Tobacco Intervention in the Dental Office Setting, ” abstract
       presented to the National Dental Tobacco-Free Steering Committee, June 15-16,
       1992.

148.   Sullivan, Louis W., MD, Secretary of Health and Human Services, remarks before
       the Major League Baseball Team Physicians and Trainers, Chicago IL, December
       3, 1990



                                            34

149.   Sullivan, Louis W., MD, Secretary of Health and Human Services, remarks before
       Healthy Oklahoma 2000/Southwest Tobacco Use Prevention Conference, Oklahoma
       City, OK, November 7, 1991.

150.   U.S. Department of Health and Human Services, Centers for Disease Control,
       “Deaths from Oral Cavity and Pharyngeal Cancer - United States, 1987, ”
       Morbidity and Mortality Weekly Report, 39:457-60, July 13, 1990.

151.   U.S. Department of Health and Human Services, “Smoking and Health in the
       Americas: Executive Summary, ” a 1992 report of the Surgeon General, in
       collabomtion with the Pan American Health Organization.

152.   U.S. Tobacco Company, UST 1990 Annuul Report.

153.   U.S. Tobacco Company, UST C’oporate Citizenship Report, 1991.

154.   Walker, Chris, “SEC Bans Use of Tobacco in League Baseball Games, ” l%e
       Montgomery Adve~”ser, page 5B, January 27, 1992.

155.   Walsh, M., C. Masouredis, B. Gerbert, D. Grady, J. Greene, and V. Ernster,
       “Issues Related to Smokeless Tobacco Use and Cessation Among Professional
       Baseball Players, ” University of California, San Francisco, CA.

156.   Walsh, M., C. Masouredis, J. Carey, L. Finta, D. Grady, J. Hilton, M. Chesney,
       and V. Ernster, “Smokeless Tobacco Use Among College Athletes, ” University of
       California, San Francisco, CA.

157.   Williams, Nancy Johnson, “A Smokeless Tobacco Cessation Program for
       Postsecondary Students, ” a doctoral dissertation, Memphis State University, May
       1992.




                                            35
                              APPENDIX                     A

PROFILES    OF 1992 SPIT TOBACCO          USERS

These are brief profdes of some young users we interviewed for the study.

1. Jack from Arkansas, 17 years old, white.

       Jack has used spit tobacco regularly since the sixth grade. His father was a
       professional bass fisherman who had received free spit tobacco samples. His
       father died of oral cancer after using for 40 years. Jack has health problems from
       using -- receding, sore gums, peeling skin inside his cheek, sores on his tongue
       and frequent sore throats. In fact, he admits he is addicted, but he hasn’t tried to
       quit. His special interest is high school rodeo; using spit tobacco is a “thing all
       real cowboys should do. ” He says his school coaches borrow spit tobacco from
       him “all the time. ”


2. Carlos from Texas, 16 years old, Hispanic.

       Carlos has been a regular user since the ninth grade. Baseball is his sport -- he
       plays on his school team, and he watches it on television. He started using spit
       tobacco because the older baseball players used; it was just something everyone
       else did. Now he’s hooked and says he can’t play ball without it due to cravings.
       Carlos has tried to quit three times with no success. He thinks spit tobacco
       probably isn’t good for him, but he and his parents think it’s better than smoking
       or taking drugs.


3. Cal, 7, Lee, 10, and Scooter, 11 are   three brothers   from Florida

       All three boys started using spit tobacco very young -- Cal has used chewing
       tobacco regularly since Kindergarten, Lee since he was 3 years old and Skooter
       since seeond grade. Cal and Lee say they now use all day long and sometimes go
       to sleep with spit tobacco in their mouths. Their father, who buys spit tobacco for
       them, has used chewing tobacco for over 25 years and says he has no bad health
       effects. The boys do agree, though, that regular use can cause mouth or throat
       cancer. The town they live in has a drug problem. Dad feels that spit tobacco is a
       better alternative to hard drugs . . and candy.




                                            A   -1
4. Susan from Oregon, 16 years old, Native American.

      Susan started regular spit tobacco use when she was 12. Her friends gave it to
      her; she really enjoyed the taste and “buzz” it gave her. After that, she still didn’t
      buy her own because an older sister or her boyfriend got it for her. Susan enjoys
      doing “Indian dances” and sews Copenhagen can lids on her dress for decoration.
      Before using spit tobacco, she used alcohol, marijuana and LSD. After she started
      using spit tobacco, she began smoking cigarettes. These days, Susan just smokes.
      It took her five quit attempts before she succeeded with the help of a residential
      drug treatment program that she entered due to her alcohol and other drug use.

5. Randy from Pennsylvania, 17 years old, white.

      Randy is a college freshman who has been a regular spit tobacco user since grade
      eleven; he started when he was fourteen. He plays golf and tennis, although he is
      also a football and baseball fan. His friends encouraged him to use, but no one in
      his family has the habit. Randy dips moist snuff about five times a day, going
      through about three cans a week. He believes that spit tobacco is safer than
      cigarettes and that gum and mouth problems are very rare among users. Besides,
      he likes the taste. In high school, his health teacher, who dips snuff, showed them
      a five-minute tape about the dangers of spit tobacco use. Randy thought it was just
      a scare attempt.




                                            A   -2
         Males Currently+ Use Spit Tobacco At High Rates In Twenty States!
                                      (Source: YRBS 1991,Grades 9-12)




                                                                     25–32%                    33% or more

�
                                   20-24%
.......... 19% or less
#~j
                         El%! (over 1 in 5 males)               (over 1 in 4 males)          (over 1 in 3 males)

                                                                                      + Prececkg   30 days
   �   Weicjled   data   ** Qrveys   did not ‘Wlude students from the largest city.
                                          1
                                             Includes Washngtm. DC.




                                                         B-1

                  APPENDIX             C



SUMMARY   OF NATIONAL   AND REGIONAL   PREVALENCE   STUDx13S




                           c-1
                                                              Regional Studies - Suit Tobacco

Bib            Investigatorslhxation          Age/Grade            Sample N      Miaeellaneous   Study Information                  Current Use
                                                                                                                                  (Laat 30 days) of
                                                                                                                                    Spit Tobacco
                                                                                                                                  1 Used Regularly

                                                                                                                         Males                    Females


13    Schlife (1987)                         K-12th gradea          4,965              Native American Study            33.7% 1                   27.5%     1
      8 rural regions in Alaska

      Schh-ske (1986)                      Mean Age = 13.8           254               Native American Study            20.2% 1                   27.4% 1
      3 reservations&   1 urban area, WA

      Schinke (1987)                       Mean Age = 12.3           144               Native American Study            42.6% ~                   34.0% ‘
      Washington, Alaaka

      Wolfe and Carlos (1987)                9-10th grades           226               Native American Study                          55.9% 1
      Navajo Boarding School, NM

      Jewett (1988)                          K-6th grades           1,010              Native Amercian Study            39.2% 1                   35.1% 1
      Rosebud Reservation,   SD              7-12th grades           571

      Hall and Dexter (1989)                6,9,11th grades          257              Native American Study             34.0% ~                   24.0%     ‘
      3 tribes, 15 schools, WA

      Jewett (1988)                          7-12th grades           1056             Native American Study             36.2% 1                   32.4% 1
      4 reservations& urban non-Indians,
      South Dakota and Montana

      Batliner (1988)                        4-8th grades            623              Native American Study             47.0% 1                   45.0% 1
      South Dakota & Montana

      Foster (1988)                          7-12th grades           114              Native American Study             38.0% 1                   37.0% ‘
      Boarding School, SD

13    Foster (1988)                          K-12th grades           195                Non-Native Americans            18.4% ‘                   8.7% 1
      South Dakota                                                            (Comparative group to Native Americans)

      Hall & Dexter (1988)                  6,8,11 thgrades          853                Non-Native Americans            20,0% 1                   4.0% 1
      Washington                                                              (Comparative group to Native Americans)

      Jewett (1988)                          7-12th grades          23,693              Non-Native Americans            7.8% 1                    0.0% 1
      Metropolitan Minneapolis                                                (Comparative group to Native Americans)

      Jewett (1988)                          7-12th grades          12,590              Non-Native Americans            6.8% 1                    0.0% 1
      Greater Minneapolis                                                     (Comparative group to Native Americans)




                                                   c-2
.——
     Bib                Investigator/hation               AgelGrade      Sample N       Miscellaneous   Study Information                             Current Use
                                                                                                                                                  (Last 30 days) of
                                                                                                                                                    Spit Tobacco
                                                                                                                                                  1 Used Regtdarly

                                                                                                                                          MaIes                       Females


     13       Bather (1988)                             4-8th grades        527              Non-Native Americans                        14.6% 1                       1.6% 1
              South Dakota, Montana & Nebraska                                      (Comparative group to Native Americans)

  52	        Marty, et al. (1986)                     10-12th grades       179       Predominantly Caucaaian, blue collar,               31.8%                         2.3%
             Rural community, NW Arkan.ws            Mean age = 15.9                            rural population


 [9a	        University of Kenmcky                     7-12th grades      1,067         Phase 1: Saliva sample collected               Use in Past
             1 Metro. & 1 non-Metro.      county                                       (471 sent for biochemical testing)
                                                                                                                                        m
                                                                                      Phase 2:85 metro 8tb grsders were              42% of those
                                                                                           exposed to 3-sessiOns of                  in households
                                                                                            education intervention.             in volved in tobacco

 :9b	        w est Virginia University                5-1 2th grades     4,230             Stratified random sample              17%         5-6th           3%          5-6th
             w    Public Schools                                                                                                 29%         7-9th           1%          7-9th
                                                                                                                                 39%         10- 12th        1%          lo-12th
 12         Br ownaon, et al, (1990)                 5,8, 12th grades    5,431          Representative sample, mra]                       Use in Previous 7 Days
            78 hfkoUri  Schools                                                          counties were oversampld                     Urban:                    ~
                                                                                                                                  5rll—      1%                    5%
                                                                                                                                  8th      13%                    17%
                                                                                                                                 12tb      15%                    31%
$1         Jone s &Pyper(1986)                       7-12th grades      2,181             Stratified random sample                                   Male Only:
           Dan e County, Wisconsin                                                                                                  > Ilwk;                          Daily Use:
                                                                                                                                7th  9%                                3%
                                                                                                                               8rir 12%                                6%
                                                                                                                               9rb 12%                                 3%
                                                                                                                              Ioth 16%                                 8%
                                                                                                                              llth  14%                               11%
                                                                                                                              12dl 22%                                15%

02         Kegel es, et. al. (1989)                  7-12th grades      7,457                                                        Daily Use:                   Daily Use:
           59 co nnecticut towns&      106 schools                                                                             mh    2 .0%                 7th     .4%
                                                                                                                               8tb   5 .3%                 8th     .4%
                                                                                                                               9th   7 .1%                 9tb    .5%
                                                                                                                              10th   5 .5%                IOth    .0%
                                                                                                                              Ilth   7 .1%                Ilth    .3%
                                                                                                                              12th   8 .0%                12th    .2%




                                                          c-3
Blb           Invedgatoralbeation                      Age/Grade          Sample N    Miscellaneous     Study Information                         Current Use
                                                                                                                                                (Last 30 days) of
                                                                                                                                                  Spit Tobacco
                                                                                                                                                1 Used Regularly

                                                                                                                                        Males                     Females


18    Leopardi, et. al. (1989)                       7-12th grades         8,902     Survey I - 16-item prevalence survey         Weekly Use:                  Weeklv Use:
      Davis County, Utah                                                             Survey II -473 males in sports classes     12.1 % Total                1.1%     Total
      AI1 11 Junior highs& 7 Senior highs                                                  had survey & oral exam.              10.2%   JH                  1.1%     JH
                                                                                                                                15.0%   SH                  1.0%     SH

14    North Dakota State Department of                7-12th grades        36,693                                                7-12th 20.4%
      Health and Consolidated Laboratories                                                                                         Sioux county
      (1991), 212 ND School Districts                                                                                                 62.9%

20    State Department   of Education    (89-90)   6,8,10,12th   grades              1989-90 Drug & Alcohol Use Among                 Dailv Use:
      Oklahoma                                                                               Oklahoma Students.                 6th        3%
                                                                                                                                8th        6%
                                                                                                                               10th         8%
                                                                                                                               12th        11%

103   Bauman, et. al. (1989)                            12-14 yrS          21,203      Probability   samples of households.    &            m             &           W
      10 SMSA’S, Southeaatem      U.S.                                                                                         o-4             .2%        o-4          .1%
                                                                                                                               5-9             .3%        5-9          .0%
                                                                                                                               10-14          3.5%        10-14        .1%
                                                                                                                               15-19         11.4%        15-19        .2%
                                                                                                                               20-24         10.6%        20-24        .5%

104   Peterson, Marek, & Mann (1989)                   10th grade           1,631    14 rural and suburban school districts.          10th Graders            10th Graders
      Schools in Washington state.                                                                                                    Last Month               Last Month
                                                                                                                                         25.3%                    2.8%
                                                                                                                                       Last Week               Last Week
                                                                                                                                         17.7%                     1.4%

 8    Tri-Agency Tobacco Free Project               5,7,9,12th   grade     26,911      Maine Youth Tobacco Use Survey               Last Week
      (1991), Maine                                                                                                            5th   1.4%
                                                                                                                               7th   2.7%
                                                                                                                               9th   6.6%
                                                                                                                               12th 10.2%

 9    Tri-Agency Tobacco Free Project              5,7,9 & 12th grade      22,147      Maine Youth Tobacco Use Survey              Last Week
      (1989), Maine                                                                                                            5th  1.5%
                                                                                                                               7th  4.0 %
                                                                                                                               9th  6.0%
                                                                                                                               12rh 8.7%




                                                             c-4
    Bib            Investigators/Location                 Age/Grade         sample N       Miscellaneous   Study Information                             Current Use
I
                                                                                                                                                       (Last 30 days) of
                                                                                                                                                         Spit Tobacco
                                                                                                                                                       1 Used Regularly

                                                                                                                                             Males                     Females



    10    Tri-Agency Tobacco Free Project             5,7,9 & 12th grade     28,(KW        Maine Youth Tobacco Use Survey                  Last Week
          (1987), Maine                                                                                                             5th     1.8%
                                                                                                                                    7th     3.5%
                                                                                                                                    9th     7.8%
                                                                                                                                    12th    8.3%

    49    Simon, Stotts & Pollard (1992)               5th - 12th grade      4,230         Stratified random sample by student        Almost Daily Use
          West Vkginia                                                                    achievement & socialeconomic status.      6th   6.3%
                                                                                        Includes no racial and ethnic categories.   7th   9.6%
                                                                                                                                    8th 11.0%
                                                                                                                                    9th 22.6%
                                                                                                                                    loth 19.5%
                                                                                                                                    Ilrh 21.9%
                                                                                                                                    12th 20.8%

    11    Illinois Department of Public Health       5,7,9, & llth grades    7,118          Random sampling of 65 schools            =      Non-Metro.
          (1987), Illinois                                 9-19 years                                in Illinois.                   5th 3.7%    4.8%
          (excluding Chicago)                                                                                                       7th 7.2% 11.8%
                                                                                                                                    9th 14.6% 26.7%
                                                                                                                                    llth 16.4% 28.4%

    85    Center for Health Statistics & Bureau of        18-24 years        2,400       Randomly selected adult households.                  7%
          Community Health & Prevention,
          (1988), Wkconsin

    85a   Murray, D., (1986)                              9th grade         3,500 +         Randomly selected 9th graders              Last Week              Previous Day
          Wlaconsin Public Schools                                                               in public schools.                      5.0%                3.0%

    105   University of Minnesota                       7-12th gradea        14,000          Adolescent Health Survey of                     !21?i!Y                    !X!Y
          50 different Native American tribes                                                Native American adolescents.            7th   10.7%                 7th 6.4%
                                                                                                                                     8th   11.5%                 8th 7.1%
                                                                                                                                     9th   14.9%                 9th 10.4%
                                                                                                                                    IOth   16.0%                10th 8.9%
                                                                                                                                    llth   18.8%                llth  7.9%
                                                                                                                                    12th   20.3%                12th 6.4%

    106   Pomrehn, et. al.                           10,11 & 12th grades      1245     Adolescent Tobacco Use Prevention Study      10th 12.5%
          Three communities   in Eastern Iowa	                                                                                      llth 15.9%
                                                                                                                                    12th 13.6%




                                                              c-5
Bib           Investigators/Location           AgelGrade        Sample N     Miscellaneous     Stndy Information                          Current Use
                                                                                                                                        (Last 30 days) of
                                                                                                                                          Spit Tobacco
                                                                                                                                        1 Used Regularly

                                                                                                                                Males                    Females



107   Edumson, et. al. (1987)               College Freshman-     289      Random sample of undergraduate male             EIU?MS
      E.@ Carolina University                      Senior                   students at East Carolina University.    17-18 yrs   18.3%
                                                                            Looked at personality characteristics.   19-20 yrs   14.8%
                                                                                                                           Chewing
                                                                                                                     17-18 yrs   12.2%
                                                                                                                     19-20 yrs   10.2%

7     Connecticut Department    of Henlth    4th-12th grades     6981            Connecticut    Health Check          4tb     1.0%
      Services, (89-90)                                         (7-12th                                               5th     1.0%
                                                                grades)                                               7th     4.0%
                                                                                                                      8th     1.0%
                                                                                                                      9th     3.0%
                                                                                                                     lotb     7.0%
                                                                                                                     Ilth     7.0%
                                                                                                                     12th    10.0%

108   Youth Rlak Behavior Survey (1991)       9-12th grades      2450          School based survey (YRBS)            Total        26.1%          ~          2.4%
      Nebraska                                                                        Weighted data                  =5           19.6%          s 15       2.7%
                                                                                                                     16,17        26.6%          16,17      2.5%
                                                                                                                     > 18         36.1%          > 18       1.6%

                                                                                                                     White        27.8%
                                                                                                                     Black         3.0%
                                                                                                                     Hispanic     18.5 %
                                                                                                                     Other        24.2%

109   Youth Risk Behavior Survey (1991)       9-12th grades      2455          School baaed survey (YRBS)            ~            30.7%          T~         2.0%
      Alabama                                                                         Weighted data                  s 15         31.3%
                                                                                                                     16,17        31.0%
                                                                                                                     z 18         28.6%

                                                                                                                     White        39.2%

                                                                                                                     Black         6.8%

                                                                                                                     Hispanic
    ----
                                                                                                                     Other        16.9%





                                                   C-6
Bib           Inveetigatore/LOcation       Age/Grade      Sample N   Miscellaneous   Study Information                      Current Use
                                                                                                                          (Last 30 days) of
                                                                                                                            Spit Tobacco
                                                                                                                          1 Used Regularly

                                                                                                                 Meles                       Females



110   Youth Risk Behavior Survey (1990)   9-12th grades     1889        School based survey (YRBS)       < 15          20.2%        5 15         1.7%
      Temessee                                                                Unweighed data             16,17         24.3%        16,17        1.4%
                                                                                                         2 18          27.5%        2 18          .9%

                                                                                                         White         28.6%

                                                                                                         Black          2.8%

                                                                                                         Hkpanic
      ----
                                                                                                         Other
        ----

111   Youth Rkk Behavior Survey (1991)    9-12th grades     2457        School based survey (YRBS)       ~             34.4%        _Total       1.2%
      Temessee                                                                Unweighed data             s 15          30.6%         s 15         .7%
                                                                                                         16,17         35.8%         16,17       1.5%
                                                                                                         > 18          36.6%         > 18        1.6%

                                                                                                         White         35.8%
                                                                                                         Black         22.1%
                                                                                                         Other         29.0%

112   Youth Risk Behavior Survey (1991)   9-12th grades     2192        School based survey (YRBS)       ~             29.0%        T-           1.8%
      Pennsylvania                                                            Unweighed data             < 15          28.0%        5 15         1.0%
                                                                                                         16,17         29.0%        16,17        2.3%
                                                                                                         > 18          30.8%        ? 18         1.6%

                                                                                                         White         30.4%        White        1.7%
                                                                                                         Black         17.3%        Black        ---
                                                                                                         Hispanic       5.9%        Hispanic     ---
                                                                                                         Other         30.0%        Other        3.1%

113   Youth Risk Behavior Survey (1990)   9-12th grades                 School based survey (YRBS)        9th, White      23 .0%
      North Carolina                                                                                     12th, White       18.0%
                                                                                                          9th, Black      7.0%
                                                                                                         12th, Black       2.0 %

114   Youth Risk Behavior Survey (1990)   9-12th grades                 School based survey (YRBS)                  19%                  “     3.0%
      Mississippi

 3    Youth Rtsk Behavior Survey (1991)   9-12th grades                 School based survey (YRBS)                  22%                        2.0%
      Georgia                                                                  Weighted data




                                                c-7
Blb           Investigators/LOeation       Age/Grade      Sample N   MiasAlaneoua   Study Information             CurrmM Use
                                                                                                                (Last 30 days) of
                                                                                                                  Spit Tobacco
                                                                                                                1 Used Regularly

                                                                                                        Males                   Females


 3    Youth Risk Behavior Survey (1991)   9-12th grades                School based survey (YRBS)       24%                         3.0%
      Idaho                                                                   Weighted data

 3    Youth R]sk Behavior Survey (1991)   9-12th grades                School baaed survey (YRBS)       27%                         4.0%
      New Mexico                                                              Weighted data

 3    Youth R]sk Behavior Survey (1991)   9-12th grades                School based survey (YRBS)       19%                         2.0%
      New York                                                        Weighted data excludes students
                                                                           from the largest city.

 3    Youth Risk Behavior Survey (1991)   9-12th grades                School based survey (YRBS)       20%                         2.0%
      South Carolina                                                          Weighted data

 3    You&i Rlak Behavior Survey (1991)   9-12th grades                School based survey (YRBS)       29%                         10.0%
      South Dakots                                                            Weighted data

3     Youth Rkk Behavior Survey (1991)    9-12th grades                School based survey (YRBS)       12%                         2.0%
      Utah                                                                    Weighted data

 3    Youth Risk Behavior Survey (1991)   9-12th grades                School based survey (YRBS)       32%                         6.0%
      Colorado                                                               Unweighed dats

3     Youth Risk Behavior Survey (1991)   9-12th grades                School based survey (YRBS)       5.0%                        2.0%
      Washington D.C.                                                        Unweigbted data

3     Youth R]sk Behavior Survey (1991)   9-12th grades                School based survey (YRBS)       14%                         2.0%
      Hawaii                                                                 Unweighed data

3     Youth R]sk Behavior Survey (1991)   9-12th grades                School based survey (YRBS)       33%                         7.0%
      Montana                                                                Unweighed data

3     Youth R]sk Behavior Survey (1991)   9-12th grades                School based survey (YRBS)       22%                         4.0%
      New Hampshke                                                           Unweighed data

3     Youth Risk Behavior Survey (1991)   9-12th grades                School based survey (YRBS)       14%                         2.0%
      New Jersey                                                     Unweighed data excludes students
                                                                           from the largest city.

3     Youth Risk Behavior Survey (1991)   9-12th grades                School based survey (YRBS)       28%                         5.0%
      Oregon                                                                 Unweighed data




                                               C-8
Bib           Investigators/hcation           Age/Grade      Sample N   Miacellaneoua   Study Information                    Current Use
                                                                                                                           (Last  30days) of
                                                                                                                             Spit Tobacco
                                                                                                                           1 Used Regularly

                                                                                                                   Males                      Females



 3    Youth Risk Behavior Survey (1991)      9-12th grades                School based survey (YRBS)               29%                         2.0%
      Pemsylvania                                                       Unweighed data excludes students
                                                                              from the largeat city.

 3    Youth Risk Behavior Survey (1991)      9-12th grades                School based survey (YRBS)                19%                        3.0%
      W]aconsin                                                                 Unweighed data                                     I

 3    Youth Risk Behavior Survey (1991)
      Wyoming
                                             9-12th grades                School based survey (YRBS)
                                                                                Unweighed data
                                                                                                                   31%
                                                                                                                                   I
          5.0%



68    Youth Risk Behavior Suxvey (1991-92)   9-12th grades                School based survey (YRBS)               White   NA                 WMte    NA
                                                                                                            9-12th 29%      39%    I 9-12th     4%     13%
                                                                                                               9th 24%     38%          9th    3%     11%
                                                                                                              Ioth 31%     34%         lotb    5%      13%
                                                                                                              llth  30%    47%         llth    4%      16%
                                                                                                              12th 32%     35%         12th    4%      14%




                                                  c-9
                                                                  ----------
                                                                  Natinnal        -----—
                                                                                  Stmlies   - Snit
                                                                                             -r.      -
                                                                                                          Tnhmvn
                                                                                                          -------




Bib             Inveatigatorsll.ocation            AgelGrade             Sample N                  Miscellaneous      Study Information                        Current Use
                                                                                                                                                           (Last 30 days) of
                                                                                                                                                             Spit Tobacco
                                                                                                                                                           ‘ Used Regularly

                                                                                                                                                  Males                        Femalea

 97    U.S. Department of Health and Human        9-12th grades            11,631                  National School Based Youth Rkk        ~            19.1%         Total         1.4%
       Services (1991)                                                                                  Behavior Survey (YRBS)            White        23.9%         ~e            1.5%
       High School students in U.S.                                                                             1990 Data                 Black         3.1%         Black          .8%
                                                                                                                                          Hispanic     10.9%         Hispanic      1.0%
                                                                                                                                          Seniors      21.1%
                                                                                                                                          Sr./Whhe     26.0%

 1     U.S. Department of Health and Human        9-12th gradea            12,272                  National School Based Youth Risk       ~            19.2%         T~           1.3%
       Services (1992)                                                                                  Behavior Survey (YRBS)            White        23.6%         White        1.4%
       High School students in U.S.                                                                             1991 Data                 Black         3,6%         Black         .7%
                                                                                                                                          Hispanic     10.7%         Hispanic      .6%

98     Glover, Laflin, & Edwards (1989)        Mean age=20.8 yrs               5,894               Stratified, random, multi-cluster                    12% of all college age
       College students across eight regions    1/3 were freshman                                  sample of physical activity classes
                                                                                                   among 72 colleges and universities
                                                                                                            throughout the U.S.
                                                                                                                 1986 Data

99     National Institute on Drug Abuse        Ages 12-17 & 18-25                           NIDA Household Survey on drug abuse           Ages 12-17      6.6%       Ages 12-17 ----
       (1988)                                                                                            1988 Data                        Ages 18-25      12.3%      Ages 18-25 ----

100	   National Institute on Drug Abuse        Ages 12-17 & 18-25                           NIDA Household Survey on drug abuse           Ages 12-17       7.4%      Ages 12-17      ----
       (1990)                                                                                            1990 Data                        Ages 18-25      12.1 %     Ages 18-25      ----

101    National Institute on Dmg Abuse         Ages 12-17 & 18-25                           NIDA Household Survey on drug abuse           Ages 12-17      5.3 %      Ages 12-17     ,5%
       (1991)                                                                                            1991 Data                        Ages 18-25      11 .6%     Ages 18-25     .4%

 6     National InstiNte on Drug Abuse             12th grade              3159                                NIDA Senior Survey         Seniors      22.2%         Seniors      1.6%
       (1986)                                                                                                      1986 Data              Sr./White    25.7%

 6     National Instimte on Drug Abuse             12tb grade                  3357                            NIDA Senior Survey         Seniors      22.8%         Seniors       .6%
       (1987)                                                                                                      1987 Data              Sr.lWhite    25.4%

 6     National Institute on Drug Abuse            12th grade                  3378                            NIDA Senior Survey         Seniors      19.9%         Seniors      1.7%
       (1988)                                                                                                      1988 Data              Sr. /White   21 .9%

 6     National Institute on Drug Abuse            12th grade                  2852                            NIDA Senior Survey         Seniors      16%           Seniors      1.2%
       (1989)                                                                                                      1989 Data              Sr./White    19%




                                                      c-lo
                                    APPENDIX                         D

KEY INFORMANTS                 INTERVIEWED



James A. Bergman,   JD
               Linda Crossett, RDH, BS
            Thomas Glynn, PhD
Executive Director
                   Dental Health Program Specialist
   Chief, Cancer Prevention
Stop Teenage Addiction
               Division of Oral Health
              & Control
  to Tobacco
                         Centers for Disease Control
        Extramural Research Branch
121 Lyman Street, Suite 210
          1600 Clifton Road NE
               National Cancer Institute
Springfield, MA 01103
                Mailstop F-1 O
                     Executive Plaza North, Rm 330
                                      Atlanta, GA 30333
                  9000 RockviUe Pike
                                                                          Bethesda, MD 20892
Alan Blum, MD
                        Donald R. Dexter, Jr., DDS

Associate Professor
                  Executive Director of IUamath

Department of Family Medicine
          Tribal Health
                    Jerome Goldstein, MD
Baylor CoUege of Medicine
            3949 south sixth
                   Executive Vice President
5510 Greenbriar
                      IUamath Falls, OR 97603
            American Academy of
Houston, TX 77oO5
                                                          Otolaryngology - Head and
                                                                            Neck Surgery
                                     Joseph DiFranza, MD                  One Prince Street
Moon Chen, Jr., PhD
                 Associate Professor of Family        Alexandria, VA 22314
Professor, Department of
              & Community Medicine
  Preventive Medicine
               University of Massachusetts
Ohio State College of Medicine
        Medical Center
                    John Greene, DMD, MPH
B110 Starling Loving HsJI
           47 Ashui State Road
                 Dean of Dental School
320 West Tenth
                      Fitchburg, MA 01420
                 University of California
Columbus, OH 43210
                                                         at San Francisco
                                                                          513 Parnassus Avenue
                                     Thomas M. DiLorenzo, PhD
            San Francisco, CA 94143-0430
Arden G. Christen, DDS, MSD
         Chairman

Chairman
                            Department of Psychology

Department of Preventive
            University of Missouri
              Robert Greer, DDS, SCD
  & Community Dentistry
             210 McAlester HalJ
                  Chairman of Oral Pathology
School of Dentistry
                 Columbia, MO 65211
                    and Oncology
Indiana University
                                                       University of Colorado
1121 West Michigan Street
                                                  Dental School

[ndiampolis, IN 46202
               Richard 1. Evans, PhD
               BOX  C 285

                                      and Associates
                     4200 East Ninth Avenue

                                     Department of Psychology
            Denver, CO 80262

Gregoxy Connolly, DMD, MPH
          University of Houston

Director of Dental HeaJth
           Houston, TX 77204-5341

Massachusetts Department
                                                 Richard Hastreiter, DDS, MPH

 of Public Health
                                                        Director, Dental Health Program

150 Tremont Street
                  Elbert D. Glover, PhD
               Minnesota Department of HealtJI

Boston, MA 02111
                    Director
                            717 Delaware Stxeet, SE

                                     Tobacco Research Center
             Minneapolis, MN 55440-9441

                                     MBR Cancer Center

Stephen B. Corbin, DDS, MPH
         West Virginia University

National Institute for
                Health Science Center
             Dorothy Hatsukami, PhD

  Dental Research
                   1 Medical Drive
                     Associate Professor of Psychiatry

National Institutes of Health
       Morgantown, WV 26506
                Universi~ of Minnesota

Building 31
                                                              Box 392 Mayo

Bethesda, MD 20892
                                                       Minneapolis, MN 55455





                                                   D-1
Jack E. Henningfield, PhD
          Robert Mecklenburg, DDS, MPH
       Nancy Johnson WiUiams, Ed.D

Chief
                              Consultant
                         Associate Professor and Clinical

CJinical Pharmacology Research
     National Cancer [nstitmte
            Coordinator

Addiction Research Center
          12304 Rivers-Edge Drive
            Department of Dental Hygiene

National Institute of Drug Abuse
   Potomac, MD 20854
                  University of Tennessee

P. O. BOX 5180
                                                         822 Beale Street, Room 321 E

Baltimore, MD 21224
                                                    Memphis, TN 38163

                                    Sherry Mills, MD, MPH

                                    Chief of the Investigator

Dietrich Hoffman, PhD                 Initiated Research Section
       Deborah M. Winn, PhD

Associate Professor of              National Cancer Institute
          Chief

 American Health Foundation         9000 Rockville Pike
                Analytical Studies & Decision

Valhalla, NY 10595                  Executive Plaza North, Rm 320
       Systems Branch
                                    Bethesda, MD 20892
                 Epidemiology & Oral Disease
                                                                         Prevention Program
Thomas Houston, MD
                                                     National Institute
Director, Preventive Medicine
      Michael L. Morgan, DDS, MPH
          of Dental Research
  & Public Health Department
       Chief, Dental Health Services
      5333 Westbard Avenue, Rm 537
American Medical Association
       Oklahoma State Department
          Bethesda, MD 20892
515 North State Street
              of Health

Chicago, IL 60610
                  1000 NE Tenth Street

                                    Oklahoma City, OK 73117-1299

Rhys Jones, DDS, MS

Director of Dental Health Center

St. Luke’s Hospital
                Carole Tracy Orleans, PhD

855 “A” Avenue NE
                  Director

Cedar Rapids, IA 52402
             Tobacco Control Research

                                    Fox Chase Cancer Center

                                    510 Township Line Road

Mary Beth Kinney, RDH, MPH
         Cheltenham, PA 19012

Dental Education Specialist

Indian Health Service

3750 Chemawa Road NE
               Barbara Park, RDH, MPH

Salem, OR 97305
                    Coordinator for Fluoridation

                                      & Preventive Health Activities

                                    American DentaJ Association

Monina Klevens, DDS, MPH
           211 East Chicago Avenue

Epidemiology Intelligence
          Chicago, IL 60611

 Services Officer

Office of Smoking and Health

Centers for Disease Control
        Can&ce Schlife, RDH, MPH

Mail Stop K50
                      Director

1600 Clifton Road NE
               Indian Health Service Dental

Atlanta, GA 30333
                    Disease Prevention Program

                                    Public Health Service

                                    300 San Matea Boulevard NE,

Christopher A. McGrew, MD
          Suite 600

Assistant Professor, Orthopedics
   Albuquerque, NM 87108

  and Family Practice

Department of Orthopedics

University of New Mexico
           Herbert H. Severson, PhD

  Medical Center
                   Research Scientist

2211 Lomas NE
                      Oregon Research Institute

Albuquerque, NM 87131
              1899 Willamette Street

                                    Eugene, OR 97401





                                                  D-2
